<html>
<title> - Labor Trafficking in Troubled Economic Times: Protecting American Jobs and Migrant Human Rights</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






 
                 LABOR TRAFFICKING IN TROUBLED ECONOMIC


                  TIMES: PROTECTING AMERICAN JOBS AND


                          MIGRANT HUMAN RIGHTS

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-1-4]
                             
                             
                             
                             
                             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                                   
                             
                          
                             
                             
                             


                   Available via http://www.csce.gov
                   
                               _______________
 
                        U.S. GOVERNMENT PUBLISHING OFFICE
   93-956 PDF                   WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                  
                   
                   
                   
                   
                
                   
                   
                   
                   
                   
                   

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,     BENJAMIN L. CARDIN, Maryland,
Chairman                               Co-Chairman
JOSEPH R. PITTS, Pennsylvania         SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama           TOM UDALL, New Mexico
PHIL GINGREY, Georgia                 JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas             RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida            ROBERT F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,            SAXBY CHAMBLISS, Georgia
New York                              MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina        KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee
                        

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  


                 LABOR TRAFFICKING IN TROUBLED ECONOMIC
                  TIMES: PROTECTING AMERICAN JOBS AND
                          MIGRANT HUMAN RIGHTS

                              ----------                              

                              May 23, 2011
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     6

                               WITNESSES

Ambassador Luis CdeBaca, Director, Office to Monitor and Combat 
  Trafficking in Persons, U.S. Department of State...............     7
Gabriela D. Lemus, Labor Representative to the Senior Policy 
  Operating Group on Trafficking in Persons, U.S. Department of 
  Labor..........................................................    10
Nancy A. Donaldson, Director, Washington Office of the 
  International Labor Organization [ILO].........................    23
Neha Misra, Senior Specialist, Migration and Human Trafficking, 
  Solidarity Center..............................................    26
Julia Ormond, Founder and President, the Alliance to Stop Slavery 
  and End Trafficking............................................    29

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    42
Prepared statement of Hon. Benjamin L. Cardin....................    44
Prepared statement of Ambassador Luis CdeBaca....................    45
Prepared statement of Gabriela D. Lemus..........................    48
Prepared statement of Nancy A. Donaldson.........................    52
Prepared statement of Neha Misra.................................    56
Prepared statement of Julia Ormond...............................    62

                                  [iii]


                     LABOR TRAFFICKING IN TROUBLED



                  ECONOMIC TIMES: PROTECTING AMERICAN



                     JOBS AND MIGRANT HUMAN RIGHTS

                              ----------                              


                              May 23, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in 2172 Rayburn House Office 
Building, Washington, DC, Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Co-Chairman, Commission on Security and Cooperation 
in Europe; Hon. Joseph R. Pitts, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Steve Cohen, 
Commissioner, Commission on Security and Cooperation in Europe.
    Witnesses present: Ambassador Luis CdeBaca, Director, 
Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State; Gabriela D. Lemus, Labor Representative to 
the Senior Policy Operating Group on Trafficking in Persons, 
U.S. Department of Labor; Nancy A. Donaldson, Director, 
Washington Office of the International Labor Organization 
[ILO]; Neha Misra, Senior Specialist, Migration and Human 
Trafficking, Solidarity Center; and Julia Ormond, Founder and 
President, the Alliance to Stop Slavery and End Trafficking.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And I want to 
welcome all of you to today's hearing, part of the Helsinki 
Commission's ongoing efforts to combat human trafficking in all 
of its aspects, which go back to June 1999 when I Chaired the 
first Commission hearing on human trafficking--really a 
tradition that continued under my good friend and colleague, 
Commissioner Cardin, when he was Chairman and now Co-Chair. 
This has been a bipartisan effort from the beginning, and it 
continues to this day.
    Today our attention turns to labor trafficking, a modern-
day form of slavery, exacerbated by the global economic 
downturn. As with all forms of trafficking, we must never lose 
sight of the victim, the truly human face of people caught up 
unwittingly in this multi-
billion dollar criminal enterprise. Having just participated in 
a conference entitled, ``Building Bridges of Freedom: Public-
Private Partnerships to End Modern-Day Slavery,'' I am acutely 
aware that in order to be successful in combating the scourge 
of human trafficking, we must strengthen the cooperation 
between governments and the private sector, particularly with 
regards to labor trafficking.
    Each year, tens of thousands of victims are trafficked into 
the United States from throughout the world. The United States 
has been at the forefront of efforts to combat human 
trafficking in all of its forms, including labor trafficking, 
following adoption of the Trafficking Victims Protection Act of 
2000.
    Our government has undertaken the vast challenge of 
tracking slavery around the world. We have developed strategic 
reporting tools such as the Trafficking in Persons Report, the 
list of goods produced with child and forced labor, and the 
findings on the worst forms of child labor. And the world has 
taken notice.
    I would note parenthetically, when I first introduced the 
Trafficking Victims Protection Act in 1998, a landmark bill 
that was signed into law 2 years later in 2000, the legislation 
was met with a wall of skepticism and outright opposition. 
People both inside and outside of government thought the bold 
new strategy that included sheltering, asylum and other 
protections for the victims, long jail sentences and asset 
confiscation for the traffickers and tough sanctions for 
governments that failed to meet minimum standards was merely a 
solution in search of a problem.
    I vividly recall raising the trafficking issue at a 
gathering of parliamentarians meeting in St. Petersburg in 
Russia in 1999 and was met with a similar reaction. As a matter 
of fact, the Russians--several on their delegation thought that 
somehow we were seeking to embarrass them. And I remember the 
Ukrainian representative very dismissively--and I remember--
Ben, you would remember that--said, but they're just 
prostitutes, as if somehow they were less than human. It was 
really a very disturbing spectacle.
    But the next year at the Bucharest OSCE Parliamentary 
Assembly, not only did we have virtually every one of the 
delegations joining in on the parliamentary supplementary item, 
as we called it, but the Russians spoke out, and the head of 
the Duma actually gave a speech in favor of the parliamentary 
supplemental item combating human trafficking.
    As the special rep for human trafficking in the 
parliamentary assembly for the OSCE, I know full well 
considerable progress has been made. I remain deeply concerned 
that of the 56 OSCE participating States, 20 will rank as Tier 
2, with another 8 placed on the Tier 2 Watch List.
    Our efforts could not have been possible both within the 
OSCE as well as here in the United States without the 
invaluable contribution of civil society, who have helped us 
write the laws and, frankly, all subsequent iterations of the 
TPVA and other similar bills around the world.
    Last week, we heard Deb Cundy of the Carlson Companies, 
which manage numerous hotel chains including the Radisson and 
Country Inns and Suites, explain how their employees were 
trained to spot potential trafficking victims and how that 
employee should notify law enforcement. Christopher Davis of 
The Body Shop International detailed the extraordinary 
education and awareness program that they have initiated, 
coupled with a petition drive that has garnered approximately 6 
million signatures worldwide.
    As we reauthorize certain sections of the act--obviously 
some of the act, some provisions, are permanent law; others 
need to be reauthorized, and they expire in the end of 
September--civil society representatives have flooded my office 
and, I'm sure, Ambassador Luis CdeBaca's office, who was in 
Rome at that conference and did a magnificent job, with some 
thoughts as to what they think ought to be done to improve and 
make more efficacious our policy vis-a-vis trafficking.
    As we all know, traffickers prey upon those in poverty and 
those lacking even the prospect of a job. I have visited 
trafficking victims' shelters in countries throughout the 
world, including Russia, Nigeria, Peru, Romania, D.R. Congo, 
Ethiopia, Brazil, Bosnia, Italy, and elsewhere. I've seen the 
faces--as have so many of you who will testify and so many in 
the audience, and certainly Members of our Commission--seen 
those faces of the victims--women and children and men--robbed 
of their inherent dignity.
    In Moldova, Catholic Relief Services documented that high 
school aged girls were disappearing, literally disappearing 
into human trafficking in large part due to the extreme lack of 
job opportunities in that country. CRS created the Moldova 
Employment and Training Alliance, which encourage private 
sector companies to expand in rural villages. And certainly, 
that has made a huge difference in that country.
    As a destination country, we must recognize that here in 
our very own backyard, thousands of people are trafficked from 
all over the world to work on our farms, in our hotels, our 
restaurants and even to serve as domestic workers. Well, even 
more shocking is that many of these labor migrants enter the 
country legally through their own immigration system, deceived 
by their traffickers who sold them a dream.
    Indeed, this afternoon we will focus on various aspects of 
labor trafficking, including abusive and illegal business 
practices, as well as ways to better educate potential migrants 
of their rights. Among other issues to be considered will be 
increased education and accountability, foreign labor 
recruiting practices and enhancing supply chain transparency. 
Labor trafficking remains the most prevalent form of human 
trafficking in the United States.
    U.S. funding for anti-trafficking efforts abroad have 
brought together labor inspectors, police, prosecutors, NGOs 
and faith-based organizations. Obviously, many challenges 
remain. So it falls to us and likeminded people of goodwill 
everywhere to meet those challenges head-on and wage an 
unceasing campaign to eradicate human trafficking from the face 
of the Earth.
    Today we are joined by Ambassador Luis CdeBaca, Director of 
the State Department Office to Monitor and Combat Trafficking 
in Persons. He is joined by Dr. Gabriela Lemus, the Department 
of Labor's labor representative to the Senior Policy Operating 
Group on Trafficking in Persons.
    On our second panel, we will hear from the Director of the 
Washington Office of the International Labor Organization, Ms. 
Nancy A. Donaldson; Ms. Neha Misra, specialist on migration and 
human trafficking for the Solidarity Center; and we have a very 
special guest in actress and activist Julia Ormond, founder of 
the Alliance to Stop Slavery and End Trafficking--a very 
talented actress and a tireless humanitarian activist who was 
absolutely instrumental in getting landmark legislation passed 
in California to combat labor trafficking and to figure out the 
supply systems of companies through better transparency and by 
working with those companies. So we will hear from that second 
panel after we hear from our very distinguished first panel.
    I'd like to yield to a good friend and colleague, Mr. 
Cardin, Co-Chairman of this Commission.

 HON. BENJAMIN L. CARDIN, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, to Chairman Smith, thank you very much 
for arranging this hearing. I think it's an extremely important 
subject. I would ask that my written opening statement be made 
part of the record.
    Mr. Smith. Without objection.
    Mr. Cardin. And I will just comment briefly. It's with 
great pride that the Helsinki Commission takes on dealing with 
the issue of trafficking, because it was this Commission that 
first raised these issues. And in the course of that, we 
conducted hearings; we sponsored resolutions at the 
parliamentary assemblies in order to get more international 
focus on modern-day slavery. We took a pretty tough stand. And 
Chairman Smith is right. Some of the initial reactions were 
less than sympathetic.
    But we persisted. And with the support of our delegation to 
Vienna, the United States had a united position to do 
everything we could to rid our societies of trafficking, the 
form of modern-day slavery. Then the permanent council started 
to act, and we started to get some best practices shared by 
other states. With the legislature and executive working in 
tandem, we were able to make significant progress.
    I remember visiting some of the shelters, where we visited 
with the victims and were able to put a spotlight on the issue 
that those that are trafficked are not criminals but they're 
victims. And law enforcement needs to conduct its affairs 
mindful of who the real criminals are. And we made more 
progress and were able to get Special Representatives, both in 
the Parliamentary Assembly--and, as you know, our Chairman, 
Chairman Smith, is that Special Representative--and in the 
Permanent Council of the OSCE.
    So we've made progress. We have a game plan today to deal 
with trafficking. And the United States has shown tremendous 
leadership in the passage of not only our domestic laws, which 
are very strong, but also the reports that are now required to 
be filed. These reports, I can tell you, have a major impact--
as I'm sure Chairman Smith would agree. When Ambassadors visit 
our office, that's one of the first issues they'll talk to us 
about, because they don't want to be listed as a watch state.
    Our primary focus has been on sexual exploitation. And I 
think that reason is somewhat self-obvious. It's a very serious 
situation around the globe, and we were able to make 
significant progress. Labor exploitation's a little bit more 
complicated, because there's an economic issue here that has 
some legitimacy--at least people think there's some legitimacy 
because of open borders and bringing in labor to help in your 
country.
    I want to applaud Chairman Smith for holding this hearing 
so that we can take a look at trafficking related to labor 
issues, particularly in these very difficult economic times.
    I want to point out that debt bondage for migration costs 
can amount to involuntary servitude or slavery. And we need to 
take a look at how these matters are being financed, because 
they are being used to deny people their basic human rights. I 
want to congratulate the Obama administration for taking this 
issue of labor seriously and the way that the Obama 
administration has coordinated the work within the Department 
of State and the Department of Commerce. That's what you need 
to do. This is a matter that involves both of those agencies. 
And I know they're working closely together.
    This is a very timely hearing. For Congress, shortly will 
be looking at the reauthorization of the Trafficking Victims 
Protection Act. And in that act, I note that in 2008, in a 
matter that I helped draft, we put into that law additional 
tools for our consulate officers to be able to look at those 
who are requesting visas to come into the United States. I'll 
be interested in hearing from our witnesses today whether those 
efforts are paying off. There's training requirements that 
consular officers be able to identify circumstances that look 
like they're trafficking. How has that in fact worked? Do we 
need to expand that training to other border officers and law 
enforcement officers? These are issues that I think we need to 
take a look at as we move forward to the reauthorization 
practices.
    Our bottom line is, we want to see what other countries are 
doing. We can learn from best practices of other countries in 
dealing with these issues. And I think we need to share the 
success stories so that we can, in fact, at long last get rid 
of these labor abuses. Working together, we can continue to 
make progress that we've made in the past so that we can 
eliminate all forms of modern-day slavery. I look forward to 
hearing from the witnesses.
    Mr. Smith. Thank you, Chairman Cardin. I'd like to yield to 
the Chairman of the Energy and Commerce Health Committee, a 
Commissioner on our Helsinki Commission for many years, Joe 
Pitts.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman. And as an original co-
sponsor of the Trafficking in Persons Law and with you in the 
OSCE, putting forth these issues, I thank you for scheduling 
this hearing entitled ``Labor Trafficking in Troubled Economic 
Times: Protecting American Jobs and Migrant Human Rights.'' The 
issues involved in the exploitation of migrant workers, broad 
and on American soil, are of grave concern to the OSCE. In the 
wake of a global recession, it is important that we continue 
our focus on human trafficking and migrant worker populations 
now more than ever.
    While the United States has taken a lead on confronting and 
combating human trafficking, we must do everything we can to 
end the practice. And this includes looking at ways to verify 
worker practices and conditions. We must find better ways at 
enforcing our own policies. Recent high-profile cases of 
violations have highlighted the need for a systemic 
verification process, one that is multilateral, including the 
help of foreign governments and organizations, and one that 
verifies from the bottom up, leaving no room for abuse 
throughout the supply chain.
    So, Mr. Chairman, I thank you for holding this important 
hearing. I look forward to hearing the ideas from our witnesses 
here today and hope that we can find concrete solutions to 
dealing with the problem of labor exploitation here in the 
United States. And I yield back.
    Mr. Smith. Commissioner Pitts, thank you very much. I'd 
like to now yield to a new Member but very active Member, Steve 
Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chairman. It's a pleasure to be 
here, and I'm going to look forward to listening to the 
testimony. Ambassador CdeBaca was a counsel to the Judiciary 
Committee, which I serve on, and has quite an honorable and 
distinguished record. Good to see you again in your position. 
And Ms. Lemus has been at some of the greatest universities in 
this country, including the University of Memphis. So it's good 
to have a Memphis denizen, even if a short tenure with us 
today.
    This is an important issue. Slavery in any component is 
something we need to fight, and it needs to be something we do 
in a bipartisan fashion, because freedom is the bottom line. 
You know, there's nothing left to lose. And we had a history in 
our country of slavery. And sometimes we think of slavery 
simply as that form of the most heinous, direct, main line of 
slavery. But there are other forms. There are temporary forms. 
There are forms that we have, and we need to combat them and 
make employers just as liable for looking the other way, maybe 
not knowingly, but looking the other way when they're 
beneficiaries of slave labor. And we know that happens in this 
country and that whether they are landlords who have leased to 
people who are involved in labor trafficking, whether they are 
along the chain--I know we have products, and the California 
law goes along the chain to make people be aware that they will 
not be involved, and any producer of raw materials in the final 
product if they're involved in the slave trade, that they won't 
be allowed. I guess there'll be sanctions in the California 
law. I'd hope so. And that's what there should be. We have that 
for product. I know if you buy a guitar and it's got any kind 
of a wood product in it that's on the endangered list, you get 
in trouble for the final product. We should have the same 
thing. If wood is important, which it is in Brazil and the 
rainforests and all, it should be with human beings even more 
so.
    I'm Jewish. And Passover, which is my favorite holiday, not 
just because of the food but because of the lesson that we were 
in bondage and that we should always be cognizant of any people 
who were in bondage. And that's just not building pyramids or 
doing cotton. But that's the folks we're going to talk about 
here today. And the Judeo-Christian ethos which we are all a 
product of needs to be adhered to, and we need to pass the most 
rigorous and strong laws that we can to protect everyone.
    So with that, I thank the Chairman for scheduling this 
Commission meeting. I look forward to your testimony. I yield 
back the balance of my time.
    Mr. Smith. Mr. Cohen, thank you very much. And quoting 
Janis Joplin there?
    Let me just introduce our very distinguished panelists 
beginning with Ambassador Luis CdeBaca, Ambassador-at-Large of 
the Office to Monitor and Combat Trafficking in Persons. In May 
2009, he was appointed by President Obama to coordinate U.S. 
Government activities in the global fight against contemporary 
forms of slavery. He serves as Senior Adviser to the Secretary, 
and directs the State Department's Office to Monitor and Combat 
Trafficking in Persons which, as we all know, assesses global 
trends, provides training and technical assistance and 
advocates for an end to slavery. Ambassador CdeBaca formally 
served as Counsel, as Commissioner Cohen just said, to the 
House Committee on the Judiciary. And at the Justice 
Department, he is one of our country's most decorated Federal 
prosecutors, leading the investigation and prosecution of cases 
involving money laundering, organized crime, alien smuggling, 
official misconduct, hate crimes, and of course human 
trafficking. He was responsible for the conviction of dozens of 
abusive pimps and employers, and helped to liberate hundreds of 
victims from servitude.
    Then we'll hear from Dr. Gabriela Lemus, who was appointed 
Senior Advisor and Director of the Office of Public Engagement 
at the Department of Labor in July 2009. She represents the DOL 
at the Senior Policy Operating Group in Trafficking in Persons, 
the President's Task Force on Puerto Rico's Status, and various 
interagency working groups on immigration policy. Prior to her 
appointment, she was the first woman to hold the position of 
Executive Director at the Labor Counsel for Latin America's 
advancement, from 2007 to 2009, as well as the first woman to 
chair the National Hispanic Leadership Agenda from 2008 to 
2009. She served 3-year terms on the advisory boards of both 
the Washington Office on Latin America, or WOLA, and the U.S. 
Labor Education in the Americas Project from 2006 to 2009.
    Mr. Ambassador, please proceed as you would like.

AMBASSADOR LUIS CdeBACA, DIRECTOR, OFFICE TO MONITOR AND COMBAT 
        TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF STATE

    Amb. CdeBaca. Thank you, Mr. Chairman. Good afternoon, 
everyone, and thank you for the opportunity to shed light on 
the problem of labor trafficking both here, in the United 
States, and abroad. As you have mentioned, the OSCE and the 
Helsinki Commission in particular has led on this issue, as on 
many others.
    In Rome last week at the conference that was dealing with 
some of these issues, especially issues of supply chain, the 
words of one of our panelists from Rabbis for Human Rights 
North America reminded me and suggested what you have said, Mr. 
Cohen, which is that we are in some ways in the 10th year of 
this fight since the passage of the Trafficking Victims 
Protection Act. But as the Western world, as people of faith 
and as those who reflect the Judeo-Christian values, that we 
are in year 3,500 of this fight, and we should be measured on 
it in that sense.
    And unfortunately, 3,500 years later, estimates on the 
total number of trafficking victims in the world are as high as 
27 million. We know that the United States is a major 
destination, but we don't know how many victims of labor 
trafficking there are specifically in this country, because 
it's a hidden crime. Victims are often afraid to come forward, 
or unable, sometimes because they fear the very officers that 
could help them.
    But the cases that have been uncovered tell us some things. 
We know that labor trafficking is a problem that affects men, 
women and children alike. Labor trafficking victims often 
suffer ongoing sexual abuse, as well as threats of physical 
violence, and that the cases now are uncomfortably identical to 
cases that the United States prosecuted in sharecropping in the 
1930s, the railroad gangs of the turn of the century, or the 
padroni child begging cases of the 1870s.
    Labor trafficking victims today are lured with the same 
types of promises--a good job and a better life--only to be 
trapped through their specific vulnerabilities. For foreign 
workers, that's often lack of documents, language or 
familiarity with their rights here in America. For U.S. 
citizens, it's often homelessness, mental illness or addiction. 
Whatever the hook that the traffickers use, we must bring this 
cycle to an end once and for all.
    As you know, the United States follows an expansive 
definition of human trafficking that encompasses all of the 
actions in reducing a person or holding them in a condition of 
servitude, and so that means that the recruiter who feeds the 
victim into the system, and the end user who knowingly or 
recklessly profits from the abuse, are properly as guilty as 
the employer who enslaves the victim. Our response is based on 
the internationally recognized ``3P'' paradigm: prosecution, 
protection, and prevention. All of these victims are entitled 
to rehabilitation, and to see their abusers brought to justice.
    We have seen progress over the last decade. And across 
government, we are ever more united in this struggle. More 
cases are being done both federally and at the state level than 
ever before. And while victim identifications at time stress 
and strain our victim services response, NGOs and frontline law 
enforcement work to ensure a safety net when these people are 
found.
    In particular, I'd like to praise my colleagues at the 
Department of Labor for their work both at home and abroad. In 
the United States for instance, they've implemented a rule that 
strengthens protections for a particularly vulnerable group, 
the temporary H-2A agricultural visa holders. My colleague Dr. 
Lemus will be able to highlight this and other actions that 
Secretary Solis has taken to confront this scourge.
    But to ensure that these efforts do not fizzle out as they 
have at other points throughout the last 150 years here in 
America, we need to institutionalize our capacity, maintain our 
resources and ensure innovation across the whole of government. 
And while every aspect can and must be addressed, I'd like to 
highlight one of the most innovative things that's happening, 
and that is prevention.
    It's basic economics that without demand, there will be no 
supply. So we're looking to engage on this aspect in both 
forced labor and sex trafficking alike. The so-called sex 
industry is not a valid form of labor, and it poses its own 
unique challenges. But there are commonalities in these areas, 
most notably the need to hold everyone accountable and to make 
the cultural change necessary that undercuts the demand for 
what the traffickers are using cruelty to supply.
    Forced labor is prevalent in the production of a wide range 
of raw materials that we all come in contact, and probably came 
into contact at some point today, from cotton, chocolate, 
coffee, steel, rubber, tin. Even reputable corporate citizens 
can profit from the abuse.
    So, as you mentioned, Mr. Chairman, the cutting edge of 
anti-trafficking work is demanding that companies focus their 
attentions beyond the places where their products are 
manufactured and, instead, look at the source of their human 
capital, the methods of recruitment, where the raw materials 
are collected, harvested, or mined. Effective supply chain 
monitoring means going all the way down to that level. We think 
that such research will enhance our understanding of supply and 
demand factors that affect those workers whose labor 
contributes to the downstream profits. The aim is to find 
trafficking where it occurs, and that this knowledge will allow 
companies to join the Body Shop and Carlson Companies and 
others in running their business in a manner consistent with 
the ``3P'' paradigm.
    Removing the taint of slavery is better for everyone. Take 
for instance what's been reported from the berry patches of 
Sweden and Finland: Asian guest workers so abused that they 
were reduced to surviving on a soup made of whatever grasses 
they could gather and whatever crows they could shoot. If a 
consumer knew the suffering of the hands that had picked those 
berries, we would hope that they would have been moved to act.
    A conference last winter produced the Luxor Implementation 
Guidelines to the U.N.'s Athens Ethical principles, which seek 
to move beyond aspirational statements to the development of 
standard operating procedures, moving beyond principles to 
practice and implementation. And to date, nearly 600 companies 
have adopted those guidelines. That represents the future of 
the fight against modern slavery.
    But of course, government's role will remain central. Our 
counterparts in Europe have increasingly recognized this 
problem which all too often has been confused as low-level 
labor abuses of migrant workers. Today, with the leadership of 
the OSCE and the E.U. anti-trafficking directive, cases are on 
the rise. Countries with active rapporteurs, such as Eva 
Biaudet, who used to be at the OSCE's anti-trafficking unit, 
are seeing increases in trafficking prosecutions. As in the 
United States, Europe has seen cases in factories, hotels, 
janitorial, agriculture, forestry, landscaping and domestic 
service.
    Here in the United States, the State of California recently 
enacted the law that you mentioned, Mr. Chairman. And we're 
looking forward not only to see how that law works in the real 
world, but also to hear from Julia Ormond who, without this--
her activities, the legislation would never have been possible. 
We thank her for her vision and for her hard work in getting 
that law passed.
    And we're trying to, and we're beginning to apply those 
standards to ourselves. Governments are some of the largest 
consumers in the world, and the U.S. Government may be one of 
the largest. We can use our leverage as consumers to curb the 
demand for forced labor. We've taken steps in the U.S. 
Government procurement and contracting policies to protect 
against human trafficking. EEOC and the Department of Homeland 
Security, through this bog, are co-chairing a working group on 
implementation of the Federal Acquisition Regulation to combat 
modern slavery and contributing factors like the demand for 
commercial sex. And we will make sure that we work closely with 
this committee and with each of you individually as we start 
getting the recommendations back on how to best address the 
government's purchasing to make sure that we have, as we ask of 
others, a slavery-free footprint.
    We're at a moment in the modern abolitionist movement when 
we need to ask, what are the next steps? And over the last 
decade, the important tools have been put in place. We have 
before us now the long, hard road of implementation and 
institutionalization. And we believe that with the engagement 
of dedicated lawmakers and the commitment of the U.S. 
Government, the next 10 years, both here at the OSCE and 
abroad, will be a decade of delivering on that which we 
promised almost 150 years ago with the issuance of the 
Emancipation Proclamation. I look forward to working with you 
as we continue to deliver on that promise, and we appreciate 
your work.
    Mr. Smith. Mr. Ambassador, thank you very much for your 
testimony and your leadership.
    I'd like to now recognize Ms. Lemus.

 GABRIELA D. LEMUS, LABOR REPRESENTATIVE TO THE SENIOR POLICY 
 OPERATING GROUP ON TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF 
                             LABOR

    Ms. Lemus. Thank you. Chairman Smith, Co-Chairman Cardin, 
and distinguished Members of the Commission, on behalf of the 
Department of Labor and Secretary Solis, I thank you for the 
opportunity to discuss the Department's efforts to combat human 
trafficking both domestically and internationally.
    Under the Secretary's leadership, the Wage and Hour 
Division, the Bureau of International Labor Affairs and the 
Employment and Training Administration work collaboratively to 
ensure that the Department uses all available tools in the most 
efficient and effective manner to protect these vulnerable 
populations. I am pleased to report to the Commission our 
efforts.
    The Wage and Hour Division enforces some of the Nation's 
most comprehensive Federal labor laws, allowing the agency to 
have a daily presence in American workplaces. While Wage and 
Hour does not have responsibility to investigate trafficking 
directly, many of its investigations take place in industry 
marked by workers who are vulnerable to trafficking. This means 
that Wage and Hour Division is often the first Federal agency 
to make contact with the workers who may have been trafficked 
or maybe otherwise employed under abusive conditions in 
violation of the law.
    Because of its focus on civil enforcement, criminal 
activity found in the workplace by Wage and Hour investigators 
may be referred to an appropriate authority as part of the 
standard Wage and Hour procedure. After a referral is made, the 
agency's assistance may be requested to compute back wages to 
ensure restitution on behalf of victims of trafficking, and to 
assess penalties against their employers. Additionally, in its 
role of investigating workplace laws, the Department of Labor 
may detect evidence that a worker is a victim of certain 
criminal activity, including trafficking, that may qualify the 
worker for U nonimmigrant status.
    In April 2011, the Department announced protocols to 
complete a certification that the individual petitioning for U 
nonimmigrant status is a victim of a qualifying crime and is, 
has been or is likely to be helpful in the investigation or 
prosecution of that crime. The Wage and Hour Division is also a 
member of the Federal Enforcement Working Group, along with the 
Justice Department, the FBI, and Immigration and Customs 
Enforcement. As part of the working group, Wage and Hour is 
participating in the development and implementation of the--a 
pilot Federal anti-trafficking coordination team, the ACT team 
program. The goal of the ACT team program is, one, to 
proactively identify and assist human trafficking victims; two, 
to develop victim-centered multidisciplinary human-trafficking 
investigations; and three, produce high-impact human-
trafficking prosecutions resulting in the conviction of 
traffickers.
    Finally, Wage and Hour also participates in several other 
outreach and partnership activities to share information and 
leverage community-based resources to more effectively inform 
workers about their rights and how they can file Wage and Hour 
complaints. Such information can assist vulnerable workers, 
including those who may have been trafficked.
    Through the Department of International Labor Affairs, it 
also plays a critical role in bringing to light the dark 
stories of human trafficking. In December 2010, the Department 
released three new reports on child labor and forced labor. 
Together, these reports demonstrate that from factories to 
farms, abuses of fundamental human rights, including human 
trafficking, still persist in the 21st century. These reports 
are, one, the list of goods produced by child or forced labor; 
two, the list of products produced by forced or indentured 
child labor; and three, the ninth annual findings on the worst 
forms of child labor.
    Since 1995, Congress has appropriated over $839 million to 
ILAB for programs to combat international child labor. This 
funding has supported technical assistance projects in more 
than 80 countries and reached approximately 1.5 million 
children at risk of, or engaged in, exploitative child labor. 
While the Department's technical assistance programs include 
stand-alone trafficking in persons projects, many also include 
multi-faceted projects to address other worst forms of child 
labor in addition to trafficking, because many of the most 
vulnerable workers in the United States are temporary foreign 
ag workers--agricultural workers, excuse me.
    ETA's H-2A program is another significant locus in the 
Department's efforts to combat trafficking. It is paramount 
that both workers in the United States and temporary foreign 
workers are provided with appropriate and adequate worker 
protections. In March 2010, a final ruling addressing the 
temporary agricultural employment of H-2A aliens in the United 
States became effective. The final rule includes enhanced 
mechanisms for protecting H-2A workers, who are increasingly 
susceptible to the abuses of dishonest employers and their 
agents, such as foreign labor recruiters. The 2010 final rule 
requires employers to contractually forbid foreign labor 
contractors or recruiters engaged in international recruitment 
of H-2A workers from seeking or receiving payments from such 
prospective employees. The 2010 H-2A final rule enhanced 
enforcement provisions allow the department to investigate and 
sanction employers and their agents or attorneys where there is 
a violation of regulation provisions. These penalties 
demonstrate the department's commitment to strengthening the 
necessary enforcement of a law that protects workers who are 
unlikely to complain to government agencies about violations of 
their rights under the program.
    In conclusion, in today's global economy, workers in any 
country are vulnerable to trafficking and labor rights abuses. 
The department's innovative and integrative programs help 
workers earn decent incomes, and prevent them from being abused 
and exploited. This approach is a vital part of the 
administration's goal of ensuring that globalization provides 
benefits and opportunities for workers everywhere, rather than 
triggering a race to the bottom.
    Again, thank you for the opportunity to testify today. I'm 
happy to answer any questions the Commission may have on the 
Department of Labor's efforts to combat trafficking.
    Mr. Smith. Thank you very much, Ms. Lemus.
    Let me just begin the questioning, if I could. Both you, 
Mr. Ambassador, and I both referenced the important work that 
has been done by Julia Ormond as founder of the Alliance to 
Stop Slavery and End Trafficking. And Senate Bill 657, which 
was signed into law, as you know, requires retail sellers and 
manufacturers doing business in California to publicly disclose 
their efforts to eradicate slavery--I'm reading from an op-ed 
written by Ms. Ormond--and human trafficking from their direct 
supply chains. She points out that by January 2012, companies 
impacted by the bill will have to post on their Web sites what 
policies they have in place to ensure that their supply chains 
are free of slavery and human trafficking.
    And my question is, this is a model bill. Obviously there's 
another 49 States and the District of Columbia that could 
follow suit, and obviously the Federal Government ought to be 
thinking along these lines as well. And I was wondering what 
your thoughts are about the new law's strengths and weaknesses, 
whether or not--and I don't think we should wait until January 
2012 to see how well or poorly it's working. I do think it 
looks to bring business along for the ride, and so I would be 
interested in your thought on this piece of legislation.
    Amb. CdeBaca. Thank you, Mr. Smith. We are very excited 
about the California law. We think that this is a very good way 
that one of the States--a State which, of course, if it were 
its own economy, certainly it would be part of the G-20, if not 
maybe even the G-8. A State like California taking these 
actions is going to have a ripple effect to countries and 
companies all the way around the world, because anyone who is a 
multinational company worthy of the name is doing business in 
California. One of the things that we see from our 
perspective--and I think we all look forward to hearing from 
Ms. Ormond and others on the specifics of the law--but what 
we've seen in talking to California, a real hero against the 
fight against traffickers in the Attorney General's office 
there, Kamala Harris, from her time when she was a State's 
attorney in San Francisco, but also Jerry Brown, who's gone 
from overseeing the training of law enforcement in California 
as the Attorney General, to go after trafficking in a new way 
over the last few years. His office has been very supportive of 
this. So one of the things that we think is going to happen is 
that all of us, as consumers, as the State Department's Office 
to Monitor and Combat Trafficking, academics, et cetera, will 
be able to access this information and start figuring out what 
the companies are doing.
    I think the brilliance of this is that in our 
understanding, it doesn't necessarily say what particular 
policy company has to have; they just have to have something. 
And we think that that will then put it out to the marketplace 
of ideas. It's an innovative way to have a regulatory structure 
that actually brings the market to bear, so all of us as 
consumers can look at these companies and make decisions, and 
put pressure on them accordingly.
    Mr. Smith. I appreciate that, thank you. Let me just ask: A 
common theme in trafficking for labor exploitation is holding 
the victim in debt bondage through recruitment and migration 
fees. Although the practice is illegal, and some countries have 
prohibited it under international conventions, how can we do a 
better job in enforcing that part of this chain of degradation? 
If you could----
    Amb. CdeBaca. One of the things Congress did on its, I 
think, first day back after the end of the Civil War was pass a 
law that was called the ``peonage'' law--because of the term 
for debt bondage in Spanish--that made it clear that the 
protections of the thirteenth amendment didn't just apply to 
the newly freed African-American slaves in the South, but 
applied to people all over the country. So this notion of debt 
bondage as being one of our core anti-slavery ideals in the 
United States is key to our efforts.
    One of the things that we've seen is that with the passage 
of the 2008 reauthorization of fraud in foreign labor 
contracting, we've seen our first convictions of that now in a 
case out of Kansas City where people were being brought over 
for janitorial services. We think that that's going to be a 
powerful tool because sometimes you can show that there was a 
debt, but you can't show that the debt was then specifically 
used as a threat. So we think that that fraud in foreign labor 
contracting provision of Title 18 that was in the TVPRA is 
going to help an awful lot.
    Two other areas, though, that we think that we need to look 
at: We're working with countries around the world to try to--as 
the Department of Labor's final rule on the guest worker 
programs here in the United States does--to try to strip the 
power of the labor recruiters to basically sell the chance to 
work in another country in exchange for the person's freedom. 
We see that as something that only when we are able to bridge 
the power differential between the source countries--your 
Bangladeshes, Philippines, Malaysia, et cetera, and the wealthy 
countries such as Saudi Arabia, Qatar, other countries in the 
Persian Gulf--only when we are able to narrow that power 
differential will we be able to end this practice of debt 
bondage.
    So for the first time just about a month-and-a-half ago, we 
were able to attend the Colombo Process, which is the sending 
and receiving countries--a multilateral forum. They asked the 
United States to attend because I think they've realized that 
even though we were not one of the countries involved, that we 
had a particular voice. And we're going to use that as an 
avenue, as well as ASEAN and some of the other fora, to put 
that kind of pressure on the receiving countries.
    Mr. Smith. Thank you. Ms. Lemus, back on July 11th and July 
15, 1996, I held two hearings on child labor. Robert Reich 
testified; he made an impassioned appeal that we have to 
prioritize, we have to keep our focus. Then, we actually had 
Kathy Lee Gifford testify; she was embroiled in a problem of 
her line of clothing being made by sweatshops in Central 
America.
    But we actually heard from Wage and Hour--the Administrator 
at U.S. Department of Labor, Maria Echaveste, who had just 
produced and spoke about the report, ``By the Sweat & Toil of 
Children,'' and she made a very strong statement that without 
the participation of industry--and this was back in 1996--
because we have too few Wage and Hour investigators, too few 
people at the State and Federal level, you just can't enforce; 
you have to have buy-in fully by the industry--that our efforts 
would flounder without that.
    And I'm wondering--that was back in 1996--what is the 
industry doing now to be full-fledged partners in trying to 
combat labor trafficking?
    Ms. Lemus. Well, at the Department of Labor, part of what 
we've also tried to do is to increase the number of inspectors 
and ensure that they're not only bilingual, but that they have 
had training around the issue of human trafficking. As I said 
earlier, they are the first to come to the table and see, maybe 
witness where persons have been victims of trafficking.
    On our end, we do about 26,000 inspections a year, yet 
there are approximately 7 million employers. So obviously, it's 
a challenge. And we do need assistance from the employers 
themselves to have buy-in that they wish to participate. And we 
would say probably a good majority of them are going to be good 
actors.
    Internationally, when we work with child labor issues in 
particular, what we're noting is that those reports do have an 
effect--that countries--as you said at the beginning, the 
Ambassadors--as soon as their reports come out, the phone calls 
at our international labor affairs office, they start streaming 
in quite steadily. And it's really an effort to partner with 
not only the countries but the businesses themselves to ensure 
that we are changing the bar, that we're actually raising the 
bar in terms of that participation with the private sector.
    Mr. Smith. Thank you. Chairman Cardin.
    Mr. Cardin. Thank you very much, Mr. Chairman. And let me 
thank both of our witnesses. The 2010 Trafficking in Persons 
Report, TIP report, for the first time included an analysis of 
the United States, which I think many of us thought was a major 
improvement on the TIP report.
    Is it the Secretary's intent that the United States will be 
included in future reports?
    Amb. CdeBaca. That's correct.
    Mr. Cardin. Good. I'm going to make sure that is done 
because I think it is helpful. But let me talk a little bit 
about your testimony--you were talking about the H-2A 
enforcement provisions--and I guess my question to you: How do 
you enforce this? You already pointed out that many of the 
laborers will be reluctant to come forward to talk about the 
circumstances out of fear. Could you just share with us how you 
intend to enforce the provisions you talked about in the H-2A 
program?
    Ms. Lemus. Through the Wage and Hour Division in 
particular, we have engaged in a variety of local campaigns--or 
national campaign, I should say--but also State and local law 
enforcement and community-based types of task forces. The Wage 
and Hour Division belongs to about 25 taskforces across the 
country at the local level.
    We also participate in the [47:46] [Federal act team ?] 
program, which is looking right at this point--and my 
understanding is, they're pilot programs--but they're looking 
to really increase the level of cooperation across Federal law 
enforcement agencies to really improve--we look at the three 
P's as prevention, protection, and prosecution; we kind of 
start on the prevention end of things because a lot of what we 
have to do is that educational piece.
    We're also engaged--and this is not a new program, but it's 
something that we've reinvigorated: We've re-engaged with a 
memo of understanding with the Government of Mexico, for 
example, whereby we have signed a memo of understanding to 
basically ensure that workers that come in from Mexico are 
aware of the----
    Mr. Cardin. But if I understand your H-2A restriction about 
the foreign employment agencies being prohibited from being 
compensated, is that what you said? Did I hear you correctly on 
that?
    Ms. Lemus. The foreign labor contractors are not to receive 
any payment from an employee. And it's up to the employer to 
pay all fees, et cetera, and contractually state that they--in 
the contract with their agents--that they may not charge them 
any fees.
    Mr. Cardin. And again, how are you going to enforce that if 
you don't have your own inspectors out, or some way of finding 
out what's going on? It's wonderful to have cooperation, but I 
don't think you're going to have cooperation from unscrupulous 
foreign employment agencies or the workers who are afraid of 
losing their jobs.
    Ms. Lemus. That is correct. There's an audit process 
through the employment training that actually certifies the 
visas. Prior to, they look at the procedures of the paperwork 
if for any reason there are any types of violations whatsoever. 
And there is a new audit process that began, I want to say, 
last year. So it's relatively new, but it's something that's 
been added. So after the fact, they are continuously checking 
the information from the workers.
    The workers do come forward, not as often as we would like 
and not as well as we would like, so we've also increased our 
partnerships with local community-based organizations, faith-
based organizations, et cetera, but also State and local law 
enforcement so that they can come forward as well. Sometimes, 
the workers do not wish to speak on their own behalves, and 
they have to have these third parties intervene, including, for 
example, the consulates.
    Mr. Cardin. Can either one of you follow up with us with 
how the 2008 provisions about training consulars on the 
issuance of visas, do we have any direct information on 
oversight as to how that has been enforced?
    Amb. CdeBaca. Certainly, Senator. One of the things that 
our consular officers now receive during ConGen, which is the 
basic consular officers' course--the trafficking victims 
identification, the indicators, et cetera, are now taught 
during the basic course. So it's not just kind of remedial 
training like it had been in the past. Additionally, an online 
training course is available for the consular officers out in 
the field for updates and for keeping current.
    But one of the things that we've seen that is probably the 
best training is the repetition of the training. You're 
familiar with, in the TVPRA of '08, the requirement that we 
work with the nongovernmental organizations to come up with a 
brochure that would be given to many of the work-based or 
employment-based visa, non-immigrant categories. And that's the 
``know your rights'' brochure that is now given out. It's 
actually reviewed by the consular officer with the immigrant 
during the interview on the visa line.
    I can't say that it's always 100 percent--it kind of 
depends on what's happening at that exact moment. But one of 
the things that we've seen is, it's got the 24-hour hotline on 
it, they have received upwards of a thousand calls since this 
went into place a couple years ago. Some of those calls are 
general wage-hour type of calls, people wanting to know about 
housing conditions, people wanting to know about a whole host 
of worker rights. But some of those calls are human trafficking 
calls. And it's something that we work with the Human 
Trafficking Resource Center and with these task forces the 
Department of Justice and ICE and others run to make sure that 
they respond when there's an allegation that's coming forth.
    Mr. Cardin. Thank you. Mr. Chairman, let me just point out: 
I think it's important that our staff really review the 
analysis of the United States in the TIP report. Let me just 
point out one nuance here that was in this report dealing with 
benefits. And as you know, immigrants, non-nationals, are 
entitled to very few benefits in this country. And if they are 
certified as being a foreign victim, then they are entitled to 
certain benefits.
    And even though there was a 250-percent increase in 
certifications for victims in the last year, there was no 
increase in funding for those programs.
    We already have a relatively--well, we already have a 
hostile attitude in this country on benefits for non-nationals. 
And we're dealing here with an area where we have either 
potential victims or victims that it seems to me we need to 
conform to international standards as to how we deal with 
governmental services available to this class of individuals.
    Thank you, Mr. Chairman.
    Mr. Smith. Commissioner Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. Mr. Ambassador, do we 
have--and it's hard to quantify, but could you give me the 
three or four worst countries that are involved in the slave 
trade?
    Amb. CdeBaca. Well, I think, Mr. Cohen, there's a couple of 
ways to cut that particular orange. Whether it's the raw 
numbers, I think that most interlocutors that look at it 
certainly in the report indicates that South Asia, that South 
Asian countries continue to have perhaps the largest numbers--
India, Nepal, Bangladesh, et cetera. East Asia and the Pacific 
region continue to be of great concern as far as the numbers 
are concerned.
    But one of the things that we often are trying to balance 
as far as saying, what's the worst country that there would be 
to be a trafficking victim--and probably our heart goes out to 
most of the folks in the AF region, the Africa region, because 
you're talking about countries that have so few functioning 
governmental structures, rule of law that's not really there. 
Even if there is an anti-trafficking law, even if they are 
active in the AU up in Addis, which does an anti-trafficking 
day for the African child--against child trafficking--on June 
16th each year, that doesn't necessarily mean it translates out 
into the villages, out into the places where these kids are 
enslaved, whether it's in the cocoa plantations, whether it's 
the fishing fleet on Lake Volta or otherwise.
    So without necessarily going into a particular country in 
Africa, we think that Africa is deserving of a lot more of 
attention. We can't take our eyes off the prize as far as the 
countries that are continually of concern in East Asia and 
South Asia. But we feel like the African children and the 
African men and women deserve to be free from slavery and 
involuntary servitude just as much as their partners.
    Mr. Cohen. What I was thinking of--and I feel like it's 
going to be difficult. I was imagining that maybe Ukraine and 
some of the more Western countries might have had more of a 
involvement. But if the State Department has any sanctions 
against countries, and if that could happen----
    Amb. CdeBaca. This is something that is one of the tools in 
our tool chest: Each year with the trafficking report, the 
ranking of the countries from Tier 1 down to Tier 3--following 
that Tier 3 designation can come sanctioning. And we've seen 
great movement, for instance, just in the last year from the 
Government of Moldova, which was very publicly concerned that 
sanctions might kick in and that sanctions, not just the 
sanctions from the TVPA--but perhaps even more importantly, the 
TVPA requires the United States to vote against a country 
that's on Tier 3 in the IMF, World Bank, et cetera.
    And in the Millennium Challenge Corporation, we've seen a 
lot of movement on countries who are concerned about their MCC 
money. Because then you're talking about some real money. So 
we've seen just in the last year the Government of Moldova, 
which doesn't necessarily have it to spare, spend almost 
$900,000 on victim care.
    Ukraine is still a problem, but not necessarily with its 
back against the wall the way it was 10 years ago because of 
the number of projects both at the OSCE, the U.S. Government 
projects, AID, Justice Department, et cetera. But we've seen 
that notion of sanctions, and the threat of sanctions, as 
something that is moving these countries.
    Mr. Cohen. As a judiciary graduate, are there laws that we 
should be looking at in judiciary you can recommend to us to 
strengthen what the body of law is in our country?
    Amb. CdeBaca. Well, one of the things that we look at each 
year in the minimum standards when we're putting together the 
rankings of the TIP report is the sufficiency of the laws in 
these countries. At the end of the day, what we've been very 
adamant on is that they have a law that's not based on old 
notions of people being moved across international borders--
that's kind of the 1880s' version of human trafficking--but 
rather focusing upon the enslavement, focusing on the abuse of 
the people so they can see them not as an illegal migrant but 
as a victim of slavery.
    So through the ABA, through the International Organization 
for Migration, through U.N. Office of Drugs and Crime and 
bilaterally, just directly as the United States, we've been 
working with countries to try to get these modern anti-
trafficking laws passed. About 120 countries have done so since 
the passage of our Trafficking Victims Protection Act, which 
was one of the first ones and therefore the models.
    But what we've seen in some countries is, they can have the 
best law on the books, but if they don't go out and use it then 
it's a failed promise. So we're having to come back in behind 
those laws, make sure that they mean something in the real 
world.
    Mr. Cohen. How about laws here in our country, about 
employers or landlords or tenants and/or employees that are 
involved either directly or secondarily in labor trafficking?
    Amb. CdeBaca. One of the most positive things about the 
2008 Trafficking Victims Protection reauthorization was moving 
from a full-on knowledge standard to a reckless-disregard 
standard for those who profit from human trafficking. And so 
what we're hoping is both the government--but then there's also 
civil liability under the trafficking act, which means that a 
good plaintiff's lawyer out there might take this and run with 
it.
    But that notion of going after the hotel owner who knows 
that the pimps are bringing the underage girls or the women 
into the hotel and profiting from that, if they're knowingly 
looking the other way, if there's a farmer--you know, when I 
was at the Justice Department, I prosecuted a farm-labor 
contractor who was putting a work crew onto the same fields 
that one of my predecessors had prosecuted somebody 20 years 
before. And the farmer was the son of the man who had watched 
this other farm-labor contractor allow slavery.
    But at the time, we didn't have this provision. So the hope 
is, now this provision with the reckless disregard, that'll be 
a way to hold, whether it's farmers, hotel owners, et cetera, 
accountable in a new way.
    Mr. Cohen. Is there confiscation of property involved with 
those laws?
    Amb. CdeBaca. There is, although to date, most of the asset 
forfeiture has been against the trafficker, the direct 
trafficker, rather than somebody who's knowingly or recklessly 
profiting from the trafficking. But I think that that's 
something that we've seen the Civil Rights Division act very 
aggressively on. It tends to focus one's mind when the domestic 
servant--say, for instance, in a case that was prosecuted out 
of Wisconsin--a domestic servant who has been held captive in a 
house for 19 years ends up owning that house because the 
government comes in and takes it away from the people who 
enslaved her. That gets a lot of attention, and it should.
    Mr. Cohen. Yes. I think it should, too. What do we have in 
the way of undercover operations? Do we have any of those?
    Amb. CdeBaca. One of the things that's been tough about 
undercover operations is because we're dealing with human 
beings, it's kind of like doing the human experiment trials in 
a university setting: The level of controls that one needs to 
have as far as a controlled purchase, or something like that, 
becomes very challenging.
    But we have in the United States done a number of 
innovative and proactive law enforcement approaches that I'd 
certainly be happy to brief you on offline; perhaps we could 
have some of our colleagues from DOJ and ICE as well to talk 
about some of those things that are being done.
    Mr. Cohen. I was just thinking--now, you were in Judiciary 
when Stephen Colbert came, when he did the migrant worker day--
maybe we could get Geraldo and let him do that.
    Amb. CdeBaca. [Laughter.] Well, it's interesting because I 
think there has been some very effective undercover work. I 
think I saw in the audience today Ben Skinner, who in his book, 
``A Crime So Monstrous,'' talks about how he basically set his 
stopwatch when he left his apartment one morning in New York, 
and within 6 hours he had bought a Haitian child for slavery. 
And I think that that says a lot not only of what world we live 
in as far as involuntary servitude, but the kind of 
investigative reporting and the kind of undercover work that 
needs to be done if we're ever going to break this.
    Mr. Cohen. Thank you, and thank you, Mr. Chairman.
    Mr. Smith.  Commissioner Cohen. Let me ask just two very 
brief questions to Ambassador CdeBaca: The J-1 visa program, as 
you know, brings in about 100,000 college students from around 
the world to work in the United States. Some work on the Jersey 
Shore, and they often do work in the summer resort industry. 
And there have been increasing numbers of reports of abuse by 
third-party brokers and unsupervised businesses. Associated 
Press did an expose on this, as you know.
    And my question is--and the national human trafficking 
hotline--let me just add this--has received, as I think you 
know, Mr. Ambassador, 369 calls from J-1 visa holders on the 
work and travel program from young people who are experiencing 
trafficking and other forms of exploitation from last summer 
alone.
    Strip clubs and adult entertainment companies openly 
solicit J-1 workers even though government regulations ban 
students from taking those jobs that might bring the Department 
of State into disrepute. And I'm wondering what could be done 
to stop the abuse of J-1 visas by labor recruiters and 
businesses, ensuring that students who come here have a safe 
and humane experience, and not one of exploitation.
    And second, on China--and I do hope when the designations 
of Tier 3 are listed that the Department and your office is 
very seriously considering the designation of Tier 3 for China 
both on the labor and sex trafficking area.
    But I'm wondering what kind of data calls you've gotten 
from--and information from our Embassy and other sources about 
the exploitations of a Chinese work force. We know there's no 
OSHA protections whatsoever; they have in excess of 125,000 
deaths directly attributable to occupational hazards. There's 
no labor unions. And those who argue for labor unions are 
summarily sent to the laogai and tortured.
    There is an MOU, as you know so well, that dates back to 
the George Bush--the first administration on prison labor, and 
it's not worth the paper it's printed on because it requires 
U.S. investigators to submit any complaint to the Chinese 
authorities, and then they investigate and report back to us. 
There's no onsite inspections, no independent verification. And 
Chinese workers, as we know, get 10 to 50 cents per hour for 
work, and many are in sweatshop conditions dotted throughout 
all of China.
    So if ever there was unfair trading practice, I think it 
is--and the exploitation of labor fits that bill. Doesn't that 
constitute labor trafficking?
    Amb. CdeBaca. Thank you, Mr. Smith. One of the things that 
of course, with the Summer Work and Travel Program--and this is 
something that when I have been in Eastern Europe, especially 
Ukraine and Russia, that we've been hearing about some of these 
concerns.
    At the end of the day, this is a program which I think, you 
know, millions of children, millions of students have been able 
to come in the United States over the last 50 years. We think 
that it's been not just a success story of U.S. public 
diplomacy, but had a lot to do with getting people behind the 
Iron Curtain to be able to understand who America was, who 
Americans were. And we want to continue that with the countries 
especially in Eastern Europe.
    One of the things that the department has done, because we 
recognize that the young age and limited sophistication of some 
participants have contributed to a potential vulnerability for 
trafficking initiatives that are targeted at the participants--
and so to minimize the risk, early this year we issued an 
interim final rule--it's April 25th of 2011--in the Federal 
Register which makes some changes to the program, sharpens the 
program as far as a pilot program for the six countries: 
Belarus, Bulgaria, Moldova, Romania, Russia, and Ukraine. And 
these are the six countries, frankly, that our law enforcement 
agencies and our Embassies and other had identified as those 
that should be of concern.
    The program and the pilot is requiring a 100-percent pre-
placement in jobs--no bringing folks over through the program, 
and then getting them jobs here; a full vetting of all the job 
offers; and enhanced monitoring.
    But one of the things that the interim final rule 
explicitly did, because we thought that it needs to be in there 
in no small part--so then if someone brings someone over and 
does this, they might not just be violating the terms of the 
program, but depending on what promises or contracts were 
given, could be reached through visa fraud, fraud in foreign 
labor contracting, or even the trafficking statutes--is that no 
Summer Work and Travel participant can be put in any position 
in the ``adult industry,'' and they can't be put into domestic-
servant positions in private homes. Both of those are things 
that we certainly know make participants vulnerable to 
trafficking, and are basically a violation of the promise that 
the United States and the program is making to these parents 
overseas that their children, their students are coming to the 
United States to learn the best of us.
    So we're committed to policing this program and to not 
tolerating any of these types of abuses within it.
    As far as China is concerned, one of the things that we've 
seen in the last months in China is in the wake of their 
joining the Palermo Protocol is a little bit more of analysis 
from the Chinese academics, as well as some parts of the 
Chinese Government, the IMOAT--I-M-O-A-T, which is the inter-
ministerial anti-trafficking coordinating body--looking at what 
they need to do to come into compliance with the Palermo 
Protocol. They have a way to go.
    And we've talked to them about this; I've raised it when in 
Beijing. Especially, there's been a problem of labor 
trafficking because up until recently--up till just this year--
men were not included in the definition of trafficking, and 
unofficial workgroups were not. If you were part of a work 
unit, then you could be considered a trafficking victim if you 
were a woman. But a man who is working in the underground 
economy would not have been covered by the trafficking laws.
    So those cases that we've known about for the last 5 or 6 
years--the horrible cases of the brick workers, the men in the 
blacksmith shops, the miners, et cetera, case after case after 
case coming to light--and having a lot of--even with the issues 
of being able to get the word out in China, cases that have 
gotten a lot of attention in China, those cases legally were 
not part of their definition of trafficking. So we've raised 
this with them, but we stand ready to continue to work with our 
Chinese counterparts on the law enforcement side especially as 
to what they need to do to address this.
    One thing that we are seeing as far as some modicum of 
worker protection is for internal migration. The Chinese 
Government has been working with the International Labor 
Organization and others, so we're seeing a little bit more as 
far as materials, know-your-rights type of things, kind of like 
what we've talked about for workers going to other countries. 
But it's the West-to-East pattern of internal migration in 
China, even to the point of having it--you know, deck of cards 
with all of the horrible things that could happen to you when 
you're in Southeast China before anybody gets on a train.
    But we certainly share many of your concerns, and we've 
raised many of these when I've had a chance to deal with our 
Chinese counterparts.
    Mr. Smith. Yes, just a followup: How difficult will it be 
for a corporation to live up to the spirit and letter of S. 
bill 657, the Senate bill in California, when some of or many 
of its feeder parts are made or manufactured in China, where--
as Harry Wu has documented over and over again, the great 
laogai survivor who is now a great champion of human rights 
here in the United States--since there's no access?
    And very often, a colonel by day is also the CEO of that 
particular corporation, and has the full protection of the 
government and the People's Liberation Army so that it's very 
hard to penetrate that corporate veil. How----
    Amb. CdeBaca. We think that the California bill will have a 
big impact. We've seen companies in China respond when there 
have been other issues often, whether it's lead in the paint or 
other adulterated materials. But this is something that--Mr. 
Cohen's point earlier about the wood in the guitar--
unfortunately, sometimes it's easier to test that wood and see 
that it's an endangered tree; it's easier to test the animal 
product and see that it's from an endangered species than it is 
sometimes to look at a factory and see whether or not somebody 
was enslaved there.
    So the level of inquiry that we hope that the California 
transparency act will enable us to proceed with--certainly, the 
hope is that we can put the freedom of a person at the same 
level as the pelt of some kind of exotic animal.
    Mr. Smith. Do you anticipate that the administration might 
suggest its own language that would parallel the California 
bill?
    Amb. CdeBaca. I think that at this point, we definitely 
want to see how the California bill comes online. We want to be 
supportive of the effort. I think that we'd certainly want to 
work with you and others, if that was something that was under 
active consideration, whether for the re-authorization or 
otherwise. But at this point, we're very much looking to see 
what we hope is going to be the success of the California bill 
before we get into the middle of it, as it were.
    Mr. Smith. I will thank our two very distinguished 
witnesses for your testimony and for your leadership. And thank 
you so much.
    I'd now like to invite our second panel to the witness 
table, beginning with Nancy A. Donaldson, Director of the 
International Labor Organization at the Washington office. 
Before joining ILO, Ms. Donaldson was Vice President for Dutko 
Global Advisors, where she was an Advisor to the ILO Washington 
office from 1997 to 2005. She was Vice President for Energy, 
Education, Technology, Trade, and International Issues at the 
Downey McGrath Group. Prior to that, she was in the Washington 
office, Director for Women's Action for a New Direction, and a 
lawyer in private practice.
    We'll then hear from Neha Misra, who is a Senior Specialist 
on Human Trafficking and Migrant Worker Programs for the 
Solidarity Center, an international worker-rights NGO based in 
Washington, DC, and part of the AFL-CIO. She has worked for 
many years in international policy, advising on migration and 
human trafficking issues. She serves as a member of the Board 
of Directors for the Global Workers Justice Alliance, and as 
chair of the public interest committee for the North American 
South Asian Bar Association.
    In addition to her position as Senior Specialist at the 
Solidarity Center, Ms. Misra also serves as Senior Program 
Officer in the Africa regional office. Her expertise on global 
trafficking issues was initially developed in Indonesia, where 
she was the Deputy Country Director and Program Manager for the 
Solidarity Center's Counter Trafficking Project. She worked in 
Indonesia for over 5 years, starting with the Solidarity Center 
as the Director of its Democracy Project.
    Before assignment in Indonesia, she worked in Bosnia on 
post-war elections and democracy, and in the United States as 
Senior Attorney Advisor with the U.S. Department of Justice. 
While at DOJ, she also served as the President of the American 
Federation of Government Employees.
    And finally, we'll hear from Julia Ormond, who is an 
internationally admired and successful actress, and has played 
roles in numerous motion pictures and TV shows, including 
``Legends of the Fall,'' ``Sabrina,'' ``The Curious Case of 
Benjamin Button,'' ``First Knight,'' and so many others. And 
she was awarded an Emmy in 2010.
    Julia Ormond has an inspirational record of advocacy on 
human rights issues, and has been strongly involved in the 
issue of human trafficking since becoming aware of it firsthand 
experience on the plight of trafficked women in Eastern Europe.
    She also served in a number of roles in international NGOs, 
most recently as President of the Alliance to Stop Slavery and 
End Trafficking, or ASSET, an organization she founded in 2007. 
ASSET is an advocacy NGO dedicated to the systematic 
eradication of slavery chiefly through giving the victims of 
slavery a voice on their own. The group was the leading sponsor 
of the California Transparency in Supply Chains Act of 2010, 
which we discussed with the earlier panel, which tackles 
slavery and human trafficking by requiring companies to report 
on the sources of their supply chains.
    Previously in 1999, Ms. Ormond also co-founded FilmAid 
International, which aims to inform and empower refugee 
communities through film. In 2005, she was named as the United 
Nations Goodwill Ambassador Against Slavery and Trafficking. 
She is no stranger to Capitol Hill, having previously testified 
in the House as well as before the California State legislature 
again on issues related to human trafficking.
    So please, if you would begin first with Ms. Donaldson, Ms. 
Misra, and then--batting cleanup will be Julia Ormond.

    NANCY A. DONALDSON, DIRECTOR, WASHINGTON OFFICE OF THE 
             INTERNATIONAL LABOR ORGANIZATION [ILO]

    Ms. Donaldson. Thank you, Mr. Chairman and Commissioner 
Cohen, and the Members of the Commission, for inviting me to 
testify today. I am representing the International Labor 
Organization, which is a specialized agency of the United 
Nations.
    Each year, millions of people leave their homes and cross 
national borders in search of better prospects and greater 
security for themselves and their families. Ninety percent of 
all migrants are workers and their families. Migrants bring 
skills and initiative to advanced economies, to host countries. 
They also benefit origin countries, sending money home and 
transfer of technology and critical skills.
    Today, we are here to discuss urgent problems often faced 
by vulnerable migrant populations and individuals--criminal 
trafficking and forced labor--and the actions that the ILO and 
others are taking to eradicate these abuses.
    Migrants are vulnerable to exploitation and discrimination. 
In the extreme, irregular migration includes trafficking, 
smuggling, sexual exploitation and violence. As ILO's recent 
report highlights, forced labor today is the antithesis of 
decent work, and a global problem affecting almost every 
country in the world.
    Traditional slavery is still found in some parts of Africa, 
while forced labor or coercive recruitment is present in many 
countries of Latin America, parts of the Caribbean, and 
elsewhere. In Europe and North America, an increasing number of 
women and children are victims of traffickers who sell them 
into forced prostitution or sweatshops.
    The ILO estimates that there are at least 12.3 million 
persons in forced labor today. Eighty percent, or 9.8 million 
people, were exploited by private agents. Most victims are 
poverty-stricken people in Asia and Latin America of those 
figures. Yet, over 360,000 women and men are in forced labor in 
industrialized countries--OSCE countries--trafficked for either 
labor or sexual exploitation. Some 56 percent of all persons in 
forced labor are women and girls, and children under 18 years 
of age make up about half, nearly half of forced laborers.
    The ILO has taken up the issue of protecting domestic 
workers vigorously. Last year, the ILO International Labor 
Conference began consideration of a domestic workers' 
convention. It will be expected to take it up for the second 
final round in June of this year. We very much appreciate the 
strong support of the United States in working on the domestic 
worker protections, and also the OSCE.
    One principal responsibility of the ILO is drawing up and 
overseeing international labor standards. Strong enforcement of 
labor standards worldwide, levels the playing field for all 
workers, including American workers and industries. In today's 
globalized economy, international labor standards are also an 
essential component for ensuring that the growth of the global 
economy provides benefits to all.
    The ILO has pioneered the development of international 
standards prohibiting forced labor and for the governance of 
labor migration and the protection of migrant workers since the 
1930s. Two of the eight core conventions among core labor 
standards set out prohibitions on all forms of forced labor. 
There are also two conventions, 97 and 193, that govern 
migration for employment. Also, in 1990, the U.N. International 
Convention on the Protection of Rights of All Migrant Workers 
and Members of Their Families was established.
    The ILO has two specialized programs: the International 
Migration Program and the Special Action Program to Combat 
Forced Labor, which provides technical assistance to ILO 
countries and partners with the challenges of labor migration 
and forced labor. The ILO is promoting a global alliance with 
partner agencies, pooling their efforts to eliminate forced 
labor worldwide by 2015. The OSCE is a major partner in this 
endeavor, and we do a lot of things together.
    ILO's International Migration Program supports ILO member 
states in combating discrimination against migrants and helping 
their social and economic integration. Currently, the program 
is engaged in 14 technical cooperation projects either funded 
by or implemented in OSCE countries, working to develop 
effective migration systems and policies and to strengthen 
government institutions and educate migrants on their rights 
and the services available. ILO has been at the forefront of 
generating and sharing data and knowledge on these subjects to 
raise public awareness and increase pressure for action. ILO's 
initial body of research was seminal, as it provided the basic 
facts and figures on modern forced labor, raising the global 
pressure for policy change.
    I would like to emphasize that improving data collection on 
these issues is of paramount importance. Significant gaps in 
understanding the quantitative dimension of forced labor and 
human trafficking remain. I will say that the U.S. law has 
brought forward more data collection, which we think is 
extremely important.
    The ILO has developed and disseminated courses, guidances, 
training materials on key aspects of forced labor and 
trafficking. And cooperation between the OSCE and the ILO on 
research and training has helped our economic partners to 
access important knowledge and expertise.
    The ILO assists governments. We work hand in hand with our 
183 member governments in designing and implementing projects 
on the ground. Through our Decent Work Country Programmes 
strategies, the ILO works with employers, workers and 
governments to set out agreed national priorities in the world 
of work. Experience shows with--that with careful awareness 
raising, consensus can be built to include sensitive subjects 
such as forced labor among the core national priorities.
    In Brazil, the ILO has been working with our social 
partners on the issue of forced labor and global supply chains. 
The abolition of slave labor and the worst forms of child labor 
are a key priority for Brazil and their national agenda for 
decent work. With grant support from the State Department, ILO 
worked with companies and continues to work with the 
government, companies and civil society to promote new 
understanding and strategies for engagement. The key objective 
is to strengthen the global alliance against forced labor by 
reducing the risks of trafficking and forced labor facing 
Brazilian suppliers and international buyers. And we work with 
seven tiers of suppliers just in Brazil sometimes.
    I want to leave the Commission with three key points. One, 
good migration policies and the abolition of forced labor are 
challenges for every county, whether industrialized, emerging 
economies or less developed. We believe that true gains in the 
governance of migration and against forced labor must happen in 
a multilateral context.
    Two, the ILO takes a rights-based approach to these issues. 
In that, we are very harmonious with this Commission. We are 
devoted to promoting social justice and decent work in 
recognizing human and labor rights.
    Three, the governance of migration and forced labor 
deserves a multi-stakeholder approach. The ILO works with 
governments and its strong social partners to reduce irregular 
migration and end forced labor and ensure protection of 
workers' rights. We have enjoyed fruitful partnerships with G/
TIP, DRL, and ILAB represented here today, and we respect and 
seek more ways to work with the Solidarity Center. We are 
dedicated to continue working together with our social partners 
and advocates to improve migrants' conditions and to end forced 
labor and human trafficking around the world. Thank you very 
much.
    Mr. Smith. Thank you very much, and thank you for the good 
work of ILO over these many decades.
    I'd like to now ask Ms. Misra if she would proceed.

NEHA MISRA, SENIOR SPECIALIST, MIGRATION AND HUMAN TRAFFICKING, 
                       SOLIDARITY CENTER

    Ms. Misra. Thank you, Chairman Smith and Commissioner 
Cohen, for this opportunity to testify today. I'd like to ask 
that my full written testimony be submitted to the record so 
that I can be very brief with you----
    Mr. Smith. Sure.
    Ms. Misra [continuing]. And we can get to some questions.
    Mr. Smith. Without objection, so ordered.
    Ms. Misra. OK. The Solidarity Center is an International 
Labor-Rights Organization working in over 60 countries around 
the world, and really appreciates the U.S. Helsinki Commission 
focus in this hearing on trafficking for labor exploitation and 
the focus on abusive, unethical and illegal business practices 
that contribute to human trafficking and forced labor. We've 
seen firsthand how violations of worker rights and the lack of 
labor standards and protections for workers increase their 
vulnerability to human trafficking. But we still see in the 
media and when you talk to the public about human trafficking, 
many times you'll hear people talk about it as the crime of 
organized syndicates, criminal gangs and underground criminals, 
which, of course, is the case in many instances. But we are 
also seeing increasingly around the world trafficking for labor 
exploitation happening in the context of legal structures of 
employment and business, with the traffickers being employers 
and labor recruiters, and not gang members or members of 
organized crime.
    And so, that's what I want to focus on today in my 
testimony. While trafficking for labor exploitation has many 
facets, several major trends in our globalized world endanger 
workers, particularly those at most risk in the need and those 
in the most need of protection. In developed economies like the 
United States and Europe, we're seeing an increase in the cases 
of trafficked immigrant teachers, nurses, construction and 
service-sector workers, all in destination countries with valid 
visas, shining a light on the structural failures within our 
economic and employment systems that increase immigrant 
workers' vulnerability to severe forms of labor exploitation. 
Multinational corporations, employers, businesses, labor 
recruiters and others exploit these structural failures.
    Of particular concern to us--and Chairman Smith, you talked 
about this in the Senate, and in the earlier testimony we heard 
some about this--are temporary labor-migration schemes. Around 
the world we hear these referred to as guest-worker sponsorship 
or circular-migration programs. But these are increasingly 
being promoted by governments around the world to fill the 
demand for cheap labor. In practice, these schemes create a 
legalized system and structure for employers to exploit workers 
and increase workers' vulnerability to human trafficking and 
other forms of severe labor exploitation.
    Such programs have been plagued by a long history of 
abuses, ranging from labor violations to visa fraud, debt 
bondage, involuntary servitude and trafficking for labor 
exploitation. This includes, among many others, the U.S. H-2 
visa guest-worker program. And we heard testimony from our 
colleague from the Department of Labor about the H-2A, but I 
would like to emphasize the H-2B visa program; seasonal 
agricultural programs in Canada, such as the Canadian-Guatemala 
Program; seasonal agricultural programs in Europe such as 
Moldovan migrant workers going to Italy; and the kafala, or 
sponsorship system, in the Gulf Cooperation Council states.
    In my written testimony, I go into detail about some of 
these abuses, but we already talked about that, so I'll skip 
over that, but just want to emphasize two common themes that we 
see come out of these temporary-visa programs.
    One of them, we talked about a little bit earlier is the 
role of foreign-labor recruiters or employment agencies 
sometimes also called foreign-labor contractors, and taking 
advantage of the lack of labor rights and inherent structural 
failures in these programs to exploit immigrant workers. The 
other theme that we see is the need to provide greater 
protections to workers and the opportunities for them to report 
abuses and advocate for their own rights.
    We've already talked a lot about the issues of debt bondage 
as some of the problems of foreign labor recruiters. I want to 
get to some of the solutions. The Solidarity Center is a proud 
member of the Alliance to End Slavery and Trafficking, or 
ATEST, which is a coalition of 12 organizations including 
Julia's organizations and many groups that are currently in 
this room. And we have some suggestions for the reauthorization 
of the Trafficking Victims Protection Act of 2011 that would 
help increase regulation of foreign-labor recruiters that we 
think is key to ending trafficking.
    In 2008, as you know, Chairman Smith, there were actually 
some of these provisions included in the House version of the 
bill. And then unfortunately it didn't pass the Senate, so it 
didn't end up in the final version. But we would really like to 
see it back in the 2011 version. And what we've seen is a 
number of service providers in the United States have said that 
greater regulation of foreign-labor recruiters and eliminating 
debt bondage would go a long way to preventing human 
trafficking in the United States.
    So we're recommending, among many recommendations, first of 
all, strict elimination of fees, that no foreign-labor 
contractor agent or employee of a foreign-labor contractor 
should be allowed to assess any fee whatsoever, including visa 
fees, processing fees, transportation fees, legal expenses, 
placement fees and other costs to any worker. And employers, if 
they paid this to the foreign-labor contractor, should not be 
allowed to pass this on to workers.
    The other key element that we would like to see in the 
TVPRA of 2011 is greater disclosure, that workers are in a 
written contract both in English and the primary language of 
the worker, the written contract disclose fully the terms and 
conditions of work; and the details of that are in my written 
testimony.
    Senator Cardin asked Ambassador CdeBaca earlier about some 
of the role of the consular officers. And I have to say that 
that pamphlet that was mandated in 2008, TVPRA, has made a 
great difference. We have a number of service providers who 
specifically say that workers in the H-2A program and others 
who have been given T visas to the United States say they found 
out about services through that pamphlet. And so we think 
greater disclosure in workers' contracts itself would really go 
a long way in helping to prevent trafficking.
    We also think that registration of foreign-labor recruiters 
is key. And our recommendation includes administrative 
procedures for the Department of Labor to register foreign-
labor recruiters and that employers should be required to use a 
certified, registered labor recruiter or face penalties.
    The last two pieces that we'd like to recommend are 
enforcement--I mentioned that we recommend an administrative 
procedure within the Department of Labor, but that also workers 
need to be given access to civil remedies and rights to access 
U.S. courts to be able to enforce their rights.
    And then finally, accountability; that workers must be 
protected from retaliation and employers must be held 
accountable for the actions of foreign-labor contractors that 
they hire. One of the big things that we are seeing as 
organizations that work on human trafficking for labor 
exploitation in the United States is that the threat of 
deportation is unfortunately being used against workers to stop 
them from reporting violations and from getting benefits of the 
T visa program. And we've actually seen a number of cases 
recently in the United States where it's taken years for 
workers to be identified as trafficking victims and get T 
visas, and that threat of deportation being used against them 
in keeping them suppressed.
    And so we would also like to recommend a change in the 2011 
TVPRA that provides temporary immigration relief to 
whistleblowers, to workers who raise the alarm about cases but 
that it might take them some time to be able to be found as 
victims of trafficking, so that during that time, they don't 
have to fear deportation, they don't have to fear threats; and 
instead, there can be an investigation done about the abuses 
that they're raising.
    Just the last thing that I'll mention is--I know Julia's 
going to talk a lot more about supply chains, so I'm not going 
to focus a lot on that--but that when I was looking at the--
when I was asked to testify today and looking at the topic for 
this hearing, I thought it was important to mention another 
major trend in the global economy is the use of trafficking for 
slave labor and slavery victims all along supply chains; and 
that when employers, whether they're buyers, multinational 
corporations or others, demand cheap labor or unrealistic 
pricing structures, they should not be surprised to find severe 
labor abuses, including slavery in their supply chains.
    Similarly, when employers contract out or hire unregulated 
subcontracted suppliers, they should not be surprised to find 
that there are trafficking victims in the production lines. And 
when employers refuse to enforce or claim that it is too 
difficult to monitor adherence to core labor standards in their 
supply chains, they will find forced labor, debt bondage and 
other severe forms of labor exploitation. And Julia, I know, 
will talk about the California law. ATEST is also advocating 
that it be included nationally in the TVPRA. But the one thing 
that at Solidarity Center we'd like to point out is that we 
think that it needs to be looked at about how the United States 
does investigations abroad of products that are made with 
forced labor or slavery.
    And just as an example, the Solidarity Center had a report 
in 2007 called ``The True Cost of Shrimp,'' which looked at the 
seafood-processing industry both in Thailand, in Bangladesh. 
And we found severe cases of forced labor, human trafficking, 
debt bondage, especially Burmese migrant workers in Thailand. 
As a result of our report, the U.S. Senate asked ICE to do an 
investigation about what was in our report. And so ICE did what 
they call a ``jump investigation,'' and they went to both 
Thailand and Bangladesh to investigate.
    The problem is that they have to notify, of course, the 
Thai Government that they were coming. And our partners on the 
ground reported that basically the supply chains are completely 
cleansed. They had 2 weeks' notice to know that they were 
coming. The books were changed. A lot of the Burmese migrant 
workers were sent off. And we have a lot of anecdotes I could 
tell you about that, but that basically ICE said to us that 
they had to say that they did not find anything that was in our 
report there. And it was basically because they had to let the 
government know.
    And so we'd like to advocate to try to find a better way to 
do these investigations so that we ensure that products made 
with forced labor, human trafficking and slavery to not enter 
the U.S. market.
    Thank you so much for this opportunity to testify. I look 
forward to your questions.
    Mr. Smith. Ms. Misra, thank you very much for your 
testimony and your work. And now, Julia Ormond, you're 
recognized.

   JULIA ORMOND, FOUNDER AND PRESIDENT, THE ALLIANCE TO STOP 
                  SLAVERY AND END TRAFFICKING

    Ms. Ormond. I learn something every time at these things. 
I've learned so much from the previous testimonies. Thank you, 
Mr. Chairman, and distinguished Members of the Commission and 
staff. I initially engaged about the issue of slavery and human 
trafficking shocked and spurred into action by reports of sex 
trafficking. Nothing then seemed to me more heinous than the 
repeated rape and violence that its victims endured.
    The wide variety of the faces of slavery that I met--the 
first were California-based. Other travels around the world 
took me to Russia, Ghana, Thailand, Cambodia, India, and 
Europe, and provided me with a creepy and shocking perspective 
of how slavery pervades my own life, how I am unwittingly 
connected to it and ultimately connected to its systemic 
violence. People often ask--it was a question that came up--
where in the world is this worst? My answer is always in my 
home.
    It's simply not possible to sit easily in Los Angeles and 
forget the enslaved children I have met, children that I have 
walked away and left to an uncertain fate. And what keeps me up 
at night, what haunts me, are all of the victims' stories. I'll 
never forget the girl who crawled out of an eight-floor window 
for fear of her life in sex slavery. But I can equally never 
forget the child enslaved in the fishing industry, who jumped 
ship into the Thai Sea to float on a barrel for 2 days and a 
night before being rescued because that was his safest option; 
or the child who was chained, whipped, and scarred for life 
while maybe working on our carpets; or the child soldier forced 
to burn his village, kill his mother, and rape his sister for 
someone else's war; or the enslaved garment worker making my 
clothing or the footage of a Mayan agricultural slave in 
Florida picking my tomatoes. These people are no less deserving 
of all of our compassion than those forced into sex slavery. 
All victims of trafficking and slavery deserve our attention 
and our commitment.
    In 2007, I founded the Alliance to Stop Slavery and End 
Trafficking, otherwise known as ASSET. ASSET's an advocacy 
organization dedicated to eradicating slavery and trafficking 
through amplifying the victim's voice and supporting systemic 
solutions. I have come to define enslavement as when one person 
completely controls another person, uses violence or violent 
threat to maintain that control, exploits them economically and 
pays them effectively nothing. Trafficking is a process of 
enslaving someone.
    Under the tenure of Ambassador CdeBaca, the 2010 Annual 
Report to Monitor and Combat Trafficking in Persons stated that 
more people are trafficked into forced labor than commercial 
sex. Yet ask any member of the public what proportion of this 
issue is sex trafficking, and the usual response is about 80 
percent. The International Labor Organization has recently 
stated that for every one person forced into the sex trade, 
nine people around the world are forced to work.
    The forced labor of these victims taints many of the 
products that we purchase and rely on every day. To quote the 
TIP report: It is not possible ``to get dressed, drive to work, 
talk on your phone, or eat a meal without touching products 
tainted by'' slavery.
    The United Nations has repeatedly stated that trafficking 
has shifted from trafficking weapons to trafficking in drugs to 
trafficking in people, and now into children. The United 
Nations Office on Drugs and Crime has cited that the profits 
from trafficking in people into Europe has now overtaken the 
profits in the trafficking of drugs into Europe. Yet, in the 
United States we spend more in 1 day still fighting the war on 
drugs than we spend in an entire year fighting the trafficking 
of people.
    So we all have a role to play in supporting the solutions, 
and solutions, there are many. Every single place I travelled 
to, I specifically sought out solutions that just await the 
resources to scale to meet a drastic need.
    In order to resource the solutions, however, it's vital to 
get the story straight. And media can play a crucial role. Sex 
will always sell, whether the story is good or bad. But we need 
the media to cover the issue fairly, proportionately. We need 
media outlets to set aside deliberate resistance of losing 
advertising revenue, and articulate how businesses can use 
their influence over supply chains to recreate the map to 
illuminate the worst areas of poverty in the world where 
slavery and trafficking can take hold.
    As advocates, we need to do a better job articulating to 
the public the enormous challenges that today's complex supply 
chains present to business. We need to articulate that the CEO 
is most often not the criminal, that this is criminal activity 
tainting their supply chain most often around raw materials, 
but as we have heard today, on many other points of intersect 
along the supply chain, just as shoplifting is criminal 
activity occurring at the other end of the supply chain, at the 
point of purchase.
    Only by rediscovering the supply chain and influencing each 
step of it by encouraging best practices can we implement real 
solutions, can the NGO work with the CEO. A supply chain 
without a policy of best practices is like a computer without 
virus protection: You will most likely become infected with a 
virus or tainted by labor violations.
    We need companies to come to the table and collaborate in 
finding better solutions to work with governments and the NGO 
community who can offer victims safety and rehabilitation, and 
can assist vulnerable communities. We cannot accurately and 
efficiently access victims without the assistance of companies 
that influence infected supply chains.
    I think one of the most crucial pieces that I've learned is 
that this is a verification of a process: Whether you are 
growing, picking, selling tomatoes out of Florida, or 
purchasing couture clothing, you will find slaves. The point is 
that the better your practices along the supply chain, the less 
you will find them, and the better your practices, the better 
your response will be at that moment.
    ASSET's solution was to be primary sponsor of the 
California Transparency in Supply Chains Act of 2010, authored 
brilliantly by Senator Darrell Steinberg, who I have to thank 
deeply. This law came into effect January 2011, and requires 
major retailers and manufacturers operating in California with 
over $100 million in worldwide gross receipts to publicly 
disclose their efforts to eradicate slavery and human 
trafficking from their supply chains.
    This law will apply to just over 3,000 companies, around 4 
percent of California companies who represent an umbrella of 
approximately 87 percent of economic activity in the State. 
This new law is one small step in a long journey forged by 
others that ASSET joined.
    I hope if it's applied well that it will represent a 
watershed in the sharing of knowledge, and will enable active 
consumer, investor and other stakeholder engagement, will 
encourage a pooling of resources, and will get us closer to 
concrete, measurable results.
    The California Transparency in Supply Chains Act will for 
the first time enable consumers to choose to support businesses 
that are creating best practices, using their purchasing power 
to encourage them to bring their expertise and knowledge of 
supply chains into the equation. Investors can implement 
corporate governance and social responsibility practices, 
providing incentives to companies to elevate human rights and 
place them right at the heart of their strategy.
    In one sweep, it'll educate companies unaware of a possible 
problem, not just of their own potential vulnerability but also 
the devastating impact of using company influence to drive 
profit up by forcing the prices of raw materials down to a 
level where labor violations and criminal activity and suicide 
are the outcome for the raw-material work force.
    It will create an environment where those companies already 
doing the right thing can more robustly and publicly turn it 
into part of their brand identity. And for the next step in the 
process to occur, Congress should enact Federal legislation 
disclosing the presence of slavery, trafficking and all forms 
of forced labor in the corporate supply chain.
    Post-globalization, where I have heard that the public 
trusts brands, identifies with brands more closely than 
government--the supply chain is the modern vehicle through 
which today we can spread liberal democracy throughout the 
world.
    Thank you for listening.
    Mr. Smith. Ms. Ormond, thank you very much for your 
testimony, for being here again, and above all, for your 
advocacy that has led to enactment of this very important 
landmark legislation.
    Let me just ask, if I could, Ms. Donaldson, you know, the 
assumption of goodwill or the potential of goodwill obviously 
undergirds the multilateral framework. Obviously most, if not, 
all United Nations, ILO, any convention always has a problem on 
the enforcement side. That's no fault of your own; it's just 
the way it works. But I think you said consensus can be built. 
And I'm wondering if the Transparency in Supply Chain Act of 
2010 might not fit best into a practice that the ILO could 
include in its framework of best laws that needs to be shared.
    One of the important aspects of when we did the Trafficking 
Victims Protection Act was to share and invite best practices 
so we could improve our own law but also to give it out 
liberally. And I remember giving a copy that John Finerty on 
our Commission staff translated into Russian to a member of the 
Russian Duma, who then got some of it enacted in the Russian 
Duma. We want plagiarism, in this case [laughter.] So I'm 
wondering if the ILO is looking at this as a best-practice law 
that needs to be shared with the world, including the 14 
agreements that you--or the work you have going within the OSCE 
and elsewhere.
    Ms. Donaldson. We are very interested to see how this law 
is implemented. And you know, we tend to see California as 
another country, just another economy. And it's very hard to be 
a big company anywhere in the world and not have California as 
one of your markets. So in a way, it may not need to be passed 
in every State.
    But yes, we want to share good practices. And I might say, 
I see this as part of a trend. And it's also because the USDA 
guidelines that have been issued by the Agriculture Department 
on best practices in agricultural settings--I see in my 
conversations with companies that across the board, there are 
different things coming up. And maybe the most intensely 
discussed right now is actually around the conflict minerals.
    But I hear companies, big ones, saying, well, the due 
diligence, that framework that the OSCE has raised, maybe we 
should use this in the context of forced labor or child labor. 
So it's creating a lot of cross-fertilization. But I do have to 
say the California law, I think, kicked it to another level in 
terms of more recent legislation.
    So thank you.
    Mr. Smith. Would you want to respond on that?
    Ms. Ormond. This was a little law that just, I feel, kind 
of got us out of an impasse. It was a moment that we could 
capitalize on, as an NGO, thanks to the work that had been done 
by the ILO. I think we actually did take some of your practices 
[laughter] we took an amalgamation of best practices, but the 
law is designed in such a way that allows the corporation to 
come in with what businesses see idiosyncratically within their 
own supply chain. Each industry has different, idiosyncratic 
problems so the NGO community can't really sit from the outside 
and dictate to them. Plus, they'll bring a totally different 
mindset and innovation to finding solutions.
    So the law is designed in such a way that we make 
suggestions as to best practices, we make suggestions in terms 
of talking to the ILO, but we also open it up to say, just--
well, tell us what you are doing so that we can rate it.
    Mr. Smith. Commissioner Cohen does have to leave, so I'd 
like to yield to him for any questions.
    Mr. Cohen. Thank you, Mr. Chairman. I have a hearing at 4--
another Ranking Member--but I want to ask Ms. Ormond, who were 
the main opponents to your law in California?
    Ms. Ormond. Thank you for landing me in it. Well, let's put 
it this way: There was not a single business in California that 
supported it. And I think we were very lucky to have a Governor 
who didn't veto it, and who stood up and asked if this is a 
job-killer, and I don't think it is. I think it's a lifesaver.
    I think there are challenges. I don't want to presume that 
people go into it with malicious intention; I think very often, 
there are stumbling blocks that because we're not discussing it 
because there's lack of transparency, we can't get to the 
solution. So within different industries, individual brands and 
companies aren't actually sharing with each other what they're 
learning.
    So I think as this--the first step is to sort of move 
industries--like, you have conflict minerals; you have the tech 
industries coming together to work on that. And in a parallel, 
you have people sharing best practices around cotton.
    If we don't move it forward in terms of raising it up, then 
I think it really has a devastating effect. I think the 
California Grocers Association----
    Mr. Cohen. They opposed the law and fought it?
    Ms. Ormond. Yes. And it took me by surprise because I 
thought, well, isn't this good for California? Can't they 
verify more easily than somebody who's reaching out to the 
developing world? And I think we just haven't really gotten to 
the bottom of how they deal with undocumented workers. I think 
it made it difficult for them legislatively to answer to that, 
because we didn't really deal with it.
    Mr. Cohen. Did the chamber or any other organized groups of 
business, manufacturers, et cetera--did any of them come out 
and work against it?
    Ms. Ormond. Yes.
    Mr. Cohen. They did? [Laughter.]
    Yes? [Laughter.]
    Ms. Ormond. Yes. They did. I mean, we went back and forth. 
We had support from consumers and consumer rights--we had a 
terrific support from socially responsible investment firms 
that represented $42 billion. And I think what we saw emerging 
was, the consumer is one stakeholder; the next consumer to 
engage through apps and writing letters and Internet and viral 
is the employee. Employees work better in an environment that 
they're happier with; they're more productive. You can go to 
the investor; you can go to shareholders with the proxy votes.
    And what we want the consumer to understand is that they 
are not--they are disempowered as an individual to a certain 
extent. But you rally them as a force together, they will drive 
what happens down the supply chain because they will demand 
that supply chains be cleaned up, or they will leave that brand 
and go to someone who is doing a better job.
    Mr. Cohen. Was the vote close on your bill?
    Ms. Ormond. Sometimes. I mean, different--there were----
    Mr. Cohen. Stages.
    Ms. Ormond. Different stages that we had to go through. 
What I have always loved about this issue is that it's a 
bipartisan issue. It's something that I will say in terms of 
the coalition, a task that we work on--it's bipartisan. And it 
has to be, for longevity.
    What I do want to say about the bill is, I think it 
provides an engagement point for the consumer to actually 
physically take action. There's a lot of awareness from an 
employee standpoint people can have; one little Web site that 
we participated in setting up has now sent off 97,000 emails to 
CEOs asking them, what are your practices? And they've got 
until January in 2012 to say ``no response.''
    And I also--if I may, just a bit before you leave, I want 
to talk about how when a supply chain is tainted, it may be 
tainted by very few individuals. But there's one example--
there's a terrific documentary called ``End of the Line'' which 
looks to the decimation of the fish population. Fishing is an 
industry that has a lot of issues. One boat coming in with two 
loads of cargo--I wrote it down somewhere; I want to get it 
right--one of those boats can come up with--I think it was the 
entirety of Taiwan's quota for one fishing season.
    So one or two criminals can decimate and destroy a supply 
chain. And I think that's what we're seeing in fishing; we're 
talking about having 20 to 50 years left of fish. It isn't 
those that have been given a quota and are meeting that quota 
that are causing that decimation; it's illegal fishing. It is 
illegal deforestation that is causing huge environmental 
damage. And if we don't look to it, I believe that that is 
where this issue feeds all the way through to being an 
international security issue.
    Mr. Cohen. I thank you for appearing before us, and your 
work, and the other panelists as well. And I wish I had more 
time to stay here, but I've got an obligation. I've learned a 
lot. As you say you've learned, I learned from this Commission. 
And there's no greater human rights champion than the Chairman, 
and I will work with him on legislation to improve our work 
product.
    You asked me earlier, do we have an audience? Well, you 
have a great audience here with Chairman Smith.
    Ms. Ormond. Thank you.
    Mr. Smith. Mr. Cohen, thank you very much, and thank you 
for your leadership. Let me just ask a couple of other 
questions, if I could. And I think Commissioner Cohen's 
comments, or one of your comments was very well-taken about a 
corporation--what corporations don't do business in California. 
I mean, it's just about the world.
    But I do think there could come in 2012 some real issues of 
faithfulness on the part of the corporations. And so the 
question would be, how do we ensure compliance with the 
mandates of the California law? Would the Federal law fill some 
gaps that perhaps dropped off as the legislation was making its 
way through, and would the additional firepower, if you will, 
of a Federal statute further prioritize and ensure that these 
corporations are, indeed, being very faithful?
    We found even when we passed the Trafficking Victims 
Protection Act, I had to hold an oversight hearing right here, 
9 months later, to ensure that major provisions where it said 
you shall set up a TIP office, you shall establish a T visa--
nothing in it said ``may''; it all said ``shall.''
    And even here, with the traditional separation of powers 
and the checks and balances that are obviously a very good 
thing, we had to have an oversight hearing--and I chaired it--
to ensure that the major revisions were carried out. Because 
delay is denial, and I would be very worried that some 
corporations will game the system, be inadequate.
    So what are the advantages of a Federal law? And do other 
states have to pass a law, or would that be--I mean, what 
corporations, again, like I said before, are not doing business 
in California?
    Ms. Ormond. Well, one of the things that we do have to do 
is get the list of who the 3,200 companies are from the 
Attorney General's office. And I think that's something, for 
instance, that you would want to put into Federal law, that 
automatically the list of who is covered gets made public so 
the NGOs aren't scrambling to do that math.
    There's a number of things. I mean, for me what the bill 
does is move us forward a step so that for instance we pave the 
way for a commission to come in. Prior to the bill, the 
commission couldn't verify it, or certify anything. So it 
wasn't possible to do it.
    But I also think that we have to kind of slightly change 
the mindset. I want to talk about fair trade a little bit, and 
how fair trade--I should rewind a bit--the greatest and most 
effective part of prevention is the alleviation of poverty, and 
providing people with alternative solutions. And I feel that's 
what fair trade goes in and elevates the process for people; 
they create communities who work together and keep each other 
on track. And they then give a premium to the farmers once they 
have helped them get them to the level of being an export.
    And mangos out of Haiti would be a great example--the 
mangos from Haiti that are sold in Whole Foods may well be 
something that elevates Haiti out of a really tragic 
circumstance. And I think we need to move toward that.
    What I also like about the California bill--people talk a 
lot about enforcement--the consumer's going to enforce it. Out 
of 3,200 companies, say, there are 50 who comply, and the rest 
don't. You've got 50 brands for people to switch to. You don't 
have to wait for the Attorney General to do anything. You've 
already clarified who's doing great work and who doesn't.
    And I think that the Federal bill will work. We've--all the 
way through we had a collaborative approach to business, and 
that's the only way that you could get to the solutions. It 
can't be done any other way. And it will be fair and it will be 
reasonable and it will be doable for business.
    Mr. Smith. Yes, thank you.
    Ms. Misra. I'm not an expert on this as Julia is, but I've 
heard a couple of things that I think are interesting. One, 
we've heard that the U.S. Chamber of Commerce is not opposing a 
Federal bill on this, because they do want to see kind of the 
playing field leveled in the sense that it would apply 
everywhere in the United States and not just in California, 
which is an interesting and surprising result from this. And 
I've also just been receiving a lot of emails from people about 
trainings that are already popping up. The University of 
Delaware is doing a training for sourcing managers on the bill, 
and so there are already companies getting ready in figuring 
out ways.
    And then just from our perspective, we're an allied 
organization of the AFL-CIO, and we've already had 
conversations with unions in the United States about kind of 
taking the role that Julia's saying on consumers and holding 
people accountable. We know who a lot of the big players are in 
the sectors that we know that there's slavery, and sort of kind 
of start targeting them and making sure that that's happening. 
And, hopefully, it will trickle down.
    Mr. Smith. Yes.
    Ms. Donaldson. Just two observations. I think we are going 
to see a real mix. I've seen legal opinions online where the 
lawyers--corporate lawyers say, well, the way you could 
interpret this is, you just have to say what you were doing on 
monitoring forced labor, and you can just you're not doing 
anything in particular and that's how to suffice the law. And 
so you may see some of that.
    I think that's going to be difficult because of the 
reports, like the reports required by the TVPA, which say, 
well, these are countries where we think there may be risk of 
problems. It's a little harder if you're sourcing from those 
countries to say, well, there's no problem in our supply chains 
that we've ever seen, and that takes care of it.
    So there's no question that interaction between State and 
Federal law is important. And I guess what I would say, we 
don't take a position on particular laws, but we are collecting 
best practices. We look forward to seeing what happens in this 
one. And I do think that the mix of laws and strategies going 
on is having a really dynamic effect.
    And I will say one thing. Once companies leave denial and 
go into ``How could we do it?'' and then they move to, ``We 
have to do something''--when enterprise and its ingenuity comes 
into play, amazing things happen. And I have to say, I'm 
getting excited about watching the companies that are at the 
front end of this, because they're solving problems that no one 
else has quite seen, and that's what we want more of. And I do 
think it's possible that that virtuous circle, spurred on by 
these different laws together, and maybe some Federal laws as 
well, is going to create the process, is creating a process 
that we can partner with each other. Because no one company can 
solve these problems, and no one country, and that's why we say 
we have to really work together. And the activists have an 
irreplaceable role.
    Thank you.
    Mr. Smith. Let me just ask you with regard to your deadline 
or your goal by 2015 of eliminating forced labor worldwide, who 
on the board would make the decision whether or not to 
incorporate the new California law into a best law practice 
that needs to be looked at by other countries? It seems to me 
that if the U.K. and other countries were to--the House of 
Commons passed a similar law, the House here, obviously, and 
the Congress--it would add an enormous pressure not just for 
reporting, but for accurate reporting, because the Web site 
would be scrutinized by not just California and the NGOs that 
are so concerned, like Julia Ormond's group and yours, but it 
would be a--it seems to be more hands pulling on the oar, the 
greater that ship will move and forced labor will be 
eradicated.
    Who makes that decision?
    Ms. Donaldson. Well, ultimately our body of countries and 
the international labor companies pass standards.
    Mr. Smith. Right.
    Ms. Donaldson. But we can do things much faster than that 
because it takes time and consideration, to pull together best 
practices. And we are asked to advise countries all the time on 
how they might solve those issues. And so I'd be happy to come 
back and let you know exactly what we are doing on that, 
because I would--I'll inquire.
    Mr. Smith. Is it something that if we were to put together 
a letter from Members of the House and Senate asking that the 
ILO look to--both on a fast track and as--you know, 2015 is not 
far away--to look at bringing on line this very valuable--and I 
would say there's nothing little about this, Ms. Ormond, as you 
said. This is huge. And one State the size of California could 
make all the difference in the entire world. But if you could, 
you know, we would--we could put together a letter that would 
try to get you to adopt it as a best practice, if you thought 
that would be helpful.
    Ms. Donaldson. Thank you.
    Mr. Smith. Let me just ask Ms. Misra with regard to 
regulating foreign labor recruiters. I chaired a hearing some 
years back when we discovered in the 2003 act, we put 
provisions in, in 2005, when we learned that U.S. corporations 
were often complicit, either indifferent or there was woeful 
ignorance, which is two different ways of being complicit, not 
wanting to know.
    And in Iraq, I asked, a number of questions at two hearings 
that we held jointly with the department, with the Armed 
Services Committee, about labor recruiters, particularly in 
Jordan, bringing in all these people who were slaves working 
with U.S. taxpayer money. And we keep getting assurances that 
it's been fixed. I'm not convinced. I'm wondering what you 
think, whether or not that has been fixed, if you could.
    Ms. Misra. Thank you. We're still hearing stories that it 
has not been fixed, and not just in Iraq, but also Afghanistan, 
that Jordan's being used. We've heard particularly of Nepali 
and Bangladeshi workers. And then it's also been very 
interesting with the Arab----
    Mr. Smith. They were the same ones who were exploited 
previously and that we brought attention to.
    Ms. Misra. Exactly.
    But it's also very interesting now with the Arab Spring and 
the numbers of people who have been talking about the refugees 
that are crossing the border from Libya and other places, but 
there's huge numbers, as you know, of migrant workers who are 
in Bahrain, who are in Syria, who are in Libya and other 
places, and so their fate right now is very interesting. And a 
lot of them are being told by the labor recruiters that brought 
them over there, well, there's nothing that we can do now, and 
they're stranded. And so it's quite interesting.
    And just the global economic crisis: In the United Arab 
Emirates for example, there's large numbers of Indian migrant 
construction workers who are stuck in the UAE; the jobs dried 
up because of the economic crisis and labor recruiters are 
refusing to send them back, and so a lot of them are just 
living in camps.
    Mr. Smith. With regard to the Transparent Supply Chain Act, 
I know how Julia Ormond feels. Do you feel that there needs to 
be a Federal law?
    Ms. Misra. Absolutely, yes.
    Mr. Smith. I know you had some recommendations, but the 
biggest problem I think we might face would be a Senate 60 
votes that might be hard to procure.
    Do you have any recommendations on where it should be? 
Should it be in the TVPA reauthorization? You may have 
mentioned that earlier.
    Ms. Misra. Yes. The coalition that we're a part of, ATEST, 
is recommending that it goes into the TVPRA. We think in some 
ways that might be a little bit easier to have it as part of 
the package. But also, a stand-alone bill, we would support 
both. And so, you know, we've been having a number of 
conversations with different Senators and different Congress 
people about----
    Mr. Smith. Have you found--and I did ask Ambassador Luis 
CdeBaca earlier whether or not the administration would present 
a model piece of legislation along the same lines as 
California.
    Do you think that might be forthcoming?
    Ms. Misra. I haven't heard it coming from the 
administration itself. I have heard of several Representatives 
in the House that are putting that forward, and then our 
coalition, as I said, is supporting it. But Julie would know 
that more specifically.
    Mr. Smith. Well, we hope the two meet.
    Ms. Ormond. I would say--I guess what I would just add is 
that I--in all honesty, I think the jury's still out as to the 
best place for the bill, whether or not it be something that's 
folded into TVPA afterwards. But currently language that is 
being kicked around in terms of a Federal bill is placing it 
under the auspices of SEC.
    And I think in terms of is it worth doing nationally, is it 
worth doing as a Federal--I think the Federal bill gives it 
more teeth and raises awareness of it throughout the United 
States, and then the United States takes a leadership role.
    But we currently don't have the list from the Attorney 
General. So we need to run the figures again. Because if you've 
got 3,200 companies in California and nationally you would have 
3,201, it would be nice to know, is it just once more? Can we 
just go straight to the EU?
    And I just want to say that it isn't a perfect silver 
bullet. It's a starting point. And I think it does remain to be 
seen how the community that works on this responds to it and 
gets imaginative around it. But there definitely are stumbling 
blocks. There are stumbling blocks around conflict minerals and 
rare Earth minerals that only come out of the Congo. There are 
stumbling blocks in terms of human rights in China and places 
we can't get in. But I think it kicks the needle forward and 
challenges business to help us come up with a solution, and 
don't leave the table until we've made it.
    Mr. Smith. Thank you.
    Yes.
    Ms. Misra. May I just say one more thing also? Just jumping 
over to the foreign labor recruiter provisions, since you're 
talking about national versus stand-alone bills and folding 
into TVPRA, I know there's been some discussions about having a 
separate bill on regulating foreign labor recruiters, and I 
really want to urge you and the House of Representatives to 
consider folding it into the TVPRA, because when it is a 
separate bill, it gets caught up a lot in comprehensive 
immigration reform and questions of that. And we think, while 
those are important questions to address, if we address foreign 
labor recruiters from the perspective of it being a trafficking 
problem and being able to address it in the TVPRA, we may be 
able to get a lot further than if we had it be a stand-alone 
bill that kind of got caught up in the comprehensive 
immigration reform. So--but thank you for letting me jump that 
little piece----
    Mr. Smith. No, if you could answer, because you worked 
extensively in Indonesia and elsewhere----
    Ms. Misra. Yes.
    Mr. Smith. How do you recommend we pierce a place like 
China, where a person even doing investigations into this kind 
of heinous activity could land themselves into prison for 10 or 
15 years and be subjected to torture? Even the corporations 
often do a ``see no evil, hear no evil'' mind-set about the 
sources of their materials, because they don't want to be 
kicked out, they don't want their industry nationalized and 
they don't want to face potential jail time.
    Ms. Misra. Absolutely.
    Mr. Smith. I'm wondering if on the Web sites might there be 
a big gap when it comes to China especially?
    Ms. Misra. Yes, and I wonder about that too. I will say, 
the Solidarity Center has a China office that we call where we 
specifically work on worker rights issues in China, and so I'm 
not the expert on that.
    But I will say one of the things that we are seeing is that 
we're increasingly seeing worker actions. You wouldn't 
necessarily call them the same that--as you see in the United 
States as strikes and other things, but we are seeing workers 
who are having many 1-day strikes, taking to the streets, 
demanding more rights in the factories where they're working. 
And we really think that the United States really needs to be 
supporting those efforts that we are seeing of workers trying 
to speak out for themselves and enforce their own rights and do 
more in that regard. And I know our office would love to come 
talk to you more about that.
    Mr. Smith. Thank you.
    Would anyone else like to add anything before the hearing 
concludes, Ms. Ormond or--yes.
    Ms. Donaldson. This is on an earlier subject, but I thought 
I could just mention one of the things that ILO's been doing 
recently--I think it was maybe in December--we had a conference 
in the Gulf States, and it was primarily focused on Embassy 
staff and economic officers from various Embassies. And we 
were--I think we were looking in particular in the labor 
trafficking issues from Nepal. But it was a very interesting 
way to have countries--and I wouldn't be surprised if the 
United States was involved as well, but other countries there 
as well--to develop a network of representative officers to 
work with each other to spot illegal-labor processes. It was 
very productive, so we're looking at how to do that in other 
places, too. And so the requirements that have happened as they 
were discussed, and Ambassador CdeBaca was talking about, just 
to let you know, that's something that can be built on, because 
if that's their responsibility and they're talking to 
counterparts, then it creates a different level of looking at 
it.
    Mr. Smith. Is there anything else?
    Ms. Ormond. Just to say thank you.
    Mr. Smith. Thank you.
    I want to thank our very distinguished witness. I do 
believe that S. 657 is an historic bill that will have 
overwhelmingly positive consequences. So, I thank you, Julia 
Ormond, for your extraordinary leadership in crafting and using 
your persuasive powers, which are very real and compelling, to 
get that legislation. And I think you gave great, I think, 
accolades to the Senate, sponsored the President Pro Tem. And I 
think that was a very--you know, it does take a lawmaker, but 
it does take people just like you and our two other 
distinguished witnesses to make all of this happen. So I thank 
you sincerely for your extraordinary leadership.
    Ms. Ormond. Thank you.
    Mr. Smith. The hearing is adjourned.
    [Whereupon at 4 p.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to today's hearing, part of the Helsinki Commission's 
ongoing efforts to combat human trafficking in all of its aspects. I 
had the privilege of chairing the first Commission hearing on 
trafficking in June 1999. Today our attention turns to labor 
trafficking, a modern-day form of slavery exacerbated by the global 
economic downturn. As with all forms of trafficking, we must never lose 
sight of the victim--the truly human face of men, women and children 
caught up unwittingly in this multi-billion dollar criminal enterprise.
    Having just returned from an international conference: ``Building 
Bridges of Freedom: Public-Private Partnerships to End Modern-Day 
Slavery,'' I am acutely aware that, to be successful in combating the 
scourge of human trafficking, we must strengthen the cooperation 
between governments and the private sector, particularly with regards 
to labor trafficking.
    When I first introduced the Trafficking Victims Protection Act in 
1998--a landmark bill that was signed into law two years later in 
2000--the legislation was met with a wall of skepticism and opposition. 
People both inside of government and out thought the bold new strategy 
that included sheltering, asylum, and other protections for the 
victims, long jail sentences and asset confiscation for the 
traffickers, and tough sanctions for governments that failed to meet 
minimum standards, was merely a solution in search of a problem. I 
vividly recall raising the trafficking issue at a gathering of 
parliamentarians meeting in St. Petersburg, Russia in 1999 and being 
met with a similar reaction.
    Each year tens of thousands of victims are trafficked into the 
United States from throughout the world. The United States has been at 
the forefront of efforts to combat human trafficking in all its forms, 
including labor trafficking, following adoption of the Trafficking 
Victims Protection Act of 2000. Our government has undertaken the vast 
challenge of tracking slavery around the world. We have developed 
strategic reporting tools such as the Trafficking in Persons Report; 
the List of Goods Produced with Child and Forced Labor and the Findings 
on the Worst Forms of Child Labor, and the world has taken notice. 
While considerable progress has been made, I am deeply concerned of the 
56 OSCE participating States, twenty were ranked as Tier 2, with 
another eight placed on the Tier 2 Watch List.
    Our efforts would not have been possible without the invaluable 
contribution of civil society in the U.S. helped us write the law and 
all subsequent iterations. As we reauthorize certain sections of the 
Act, which expire at the end of September, civil society 
representatives have flooded my office--and I'm sure Ambassador 
CdeBaca's, who was with me at the Rome conference, has some thoughts 
about ways to improve U.S. policy and implementation.
    Catholic Relief Services and many other effective NGOs continue to 
push for expansion of shelters--places of refuge and protection, places 
where victims, mostly women, can begin the arduous process of healing. 
On the prevention and protection side, civil society advocated--and 
continues to push for--adequate shelters as well as political asylum 
for victims and their families--the latter as a means of mitigating 
retaliation. I have visited trafficking victim's shelters in countries 
throughout the world, including Russia, Nigeria, Peru, Romania, DR 
Congo, Ethiopia, Brazil, Bosnia, Italy and elsewhere.
    Working with Shared Hope International and the Center for Missing 
and Exploited Children, last year a group of us tried to establish 
federally funded shelters for trafficked minors in the U.S. Although 
the legislation passed both chambers, the versions were different and 
the clock ran out before they could be reconciled.
    As we all know, traffickers prey upon those in poverty and those 
lacking even the prospect of a job.
    In Moldova, Catholic Relief Service's documented that high-school 
age girls were disappearing into human trafficking in large part due to 
the extreme lack of job opportunities. CRS created the Moldova 
Employment and Training Alliance, which encouraged private sector 
companies to expand in rural villages.
    ``Employers developed vocational training and then guaranteed job 
opportunities after successful training. The Project, which directly 
benefited 3,300 young women [and close to 4,000 indirect 
beneficiaries], also offered support services to address social factors 
such as domestic violence, substance abuse in families, and lack of 
financial services. These factors are all cited as high-risk factors. 
The project created opportunities for young women to obtain dignified 
employment within Moldova, and the option to remain in and contribute 
to their communities. It therefore reduced the need to seek employment 
outside of the country.''
    As a destination country, we must recognize that here in our very 
own backyard, thousands of people are trafficked from all over the 
world to work on our farms, our hotels, our restaurants and even to 
serve as our domestic workers. What's even more shocking is that many 
of these labor migrants enter the country legally through our own 
immigration system, deceived by their traffickers who sold them a 
dream.
    In my work as the Special Representative for Human Trafficking in 
the Parliamentary Assembly of the Organization for Security and 
Cooperation in Europe [OSCE PA], and as Chairman of the Foreign Affairs 
Committee's subcommittee on Human Rights, I often find that my role is 
to facilitate the innovations of civil society. For example, Airline 
Ambassadors and Innocence at Risk took the fact that the airlines were 
being used by human traffickers to move victims and created a strategy 
to combat it. Flight attendants noticed suspicious circumstances, but 
had no idea what to do and would just move on to the next row. Airline 
Ambassadors subsequently launched the Child Trafficking Initiative, 
which provides flight crews with the essential information they need to 
discern a trafficking situation and to notify law enforcement on the 
ground for appropriate action once the plane has landed.
    U.S. funding for anti-trafficking efforts abroad have brought 
together labor inspectors, police, prosecutors, NGOs, and faith-based 
organizations.
    Indeed, this afternoon we will focus on various aspects of labor 
trafficking, including abusive and illegal business practices as well 
as ways to better educate potential migrants of their rights. Among 
other issues to be considered will be increased education and 
accountability, foreign labor recruiting practices and enhancing supply 
chain transparency. Labor trafficking remains the most prevalent form 
of human trafficking in the U.S.
    Civil society can, and often successfully does, influence the 
private sector. Take Craigslist, the forum for placing free online 
classified advertisements, for example. Young women were sold on 
Craigslist, several NGOs swung into action to publicize and demand that 
such evil be ended. In a matter of months, Craigslist's immoral 
facilitation of sex trafficking was removed from the website. Public-
private partnership is essential.
    Obviously, numerous major challenges remain. It falls to us--and 
like-minded people of goodwill everywhere--to meet those challenges 
head on and wage an unceasing campaign to eradicate human trafficking 
from the face of the earth.
    Today's hearing draws from an outstanding field of witnesses 
possessing expertise in various facets of labor trafficking. Their 
combined effort in the fight against forced labor and human trafficking 
has produced great results in the areas of education, awareness 
building and even prosecution. The witnesses bios have been distributed 
so let me introduce our first panel of speakers.
    First up is Ambassador Luis CdeBaca, Director of the State 
Department Office to Monitor and Combat Trafficking in Persons. He is 
joined by Dr. Gabriela Lemus who represents the Department of Labor at 
the Senior Policy Operating Group on Trafficking in Persons and who 
will report on DOL's policies designed to combat trafficking for labor 
exploitation and eliminating slavery from our supply chains.
    In our second panel we are joined by the Director of the Washington 
Office of the International Labor Organization, Ms. Nancy Donaldson and 
Ms. Neha Misra, Senior Specialist on Migration and Human Trafficking 
for the Solidarity Center. Last but certainly not least, the founder of 
the Alliance to Stop Slavery and End Trafficking, a talented actress 
and tireless humanitarian activist, Ms. Julia Ormond.
    I am grateful to each of these experts for bringing their unique 
perspectives to the table this afternoon. We look forward to your 
testimonies.

            Prepared Statement of Hon. Benjamin L. Cardin, 
     Co-Chairman, Commission on Security and Cooperation in Europe

    I appreciate participating in this hearing today as the issue of 
human trafficking has been a major priority of the Helsinki Commission 
from its very inception. Trafficking in human beings is simply today's 
phrase for the scourge of slavery. Something humanity has been 
afflicted with for thousands of years.
    This Commission has worked for a special representative within the 
State Department and for the OSCE. Our government has passed some of 
the most stringent reporting requirements in the world to help both of 
these representatives do their jobs effectively.
    Over the years, the Helsinki Commission has primarily focused its 
efforts on human trafficking for sexual exploitation and for good 
reason because of the extent of the problem.
    It is overdue, however, that we also look at trafficking for the 
purposes of labor exploitation in these exceptionally troubling 
economic times.
    It is true that labor migration is an important economic engine 
that promotes growth throughout the OSCE region. However, the labor 
migration process in many countries is fraught with potential for 
exploitation, robbing those seeking decent work of their human rights 
and dignity. This exploitation ripples throughout our product supply 
chain and services that Americans use every day. The 56 participating 
States of the OSCE region include many origin countries for labor 
migrants to Europe, North America, and areas beyond the OSCE's borders. 
Even in our own system, legally documented labor migrants can find 
themselves in debt bondage for migration costs or circumstances of 
involuntary servitude. Many of these instances remain underreported in 
our own data collection mechanisms.
    I am pleased to hear that interagency coordination is under way to 
harmonize efforts to combat human trafficking and forced labor between 
the Department of State and the Department of Labor. This cooperation 
will indeed lead to a greater understanding of the scope of labor 
trafficking in our own country and establish best practices for our 
international partners.
    This hearing is also especially timely given the upcoming 
reauthorization of the Trafficking Victims Protection Reauthorization 
Act of 2008 [TVPRA]. The Helsinki Commission has long played an active 
role in policy formulation to combat human trafficking and facilitate 
international cooperation to this end. As Chairman and now Co-Chairman 
of the Helsinki Commission, I have sought to retain that legacy.
    During Senate consideration of the TVPRA in 2008, I worked closely 
with my colleagues to ensure that consular services were playing a more 
active role on the front line of visa admissions to prevent 
trafficking. We included provisions to mandate distribution of resource 
materials and contact information for support to visa applicants so 
that they could recognize if their migration circumstances could 
potentially become labor trafficking due to the acts of unscrupulous 
recruiters. Addressing recruiter accountability remains a key priority 
for future legislative efforts.
    OSCE Special Representative Maria Grazia Giammarinaro stated, ``To 
eradicate human trafficking and forced labor, States should take more 
effective measures, including with respect to training for public 
officials likely to come into contact with cases of labor 
exploitation.'' I feel that this should be a key point of emphasis for 
our work as we seek to reauthorize the TVPRA and move forward to better 
refine victim identification efforts. Only through a greater awareness 
among our border professionals, law enforcement, consular officers, and 
service providers will trafficking be recognized as a crucial element 
of forced labor cases.
    Among the forms of modern-day slavery, labor trafficking is an 
insidious form often disguised as legitimate employment opportunities 
that contribute products and services to our economy. In this sense, 
all Americans have a stake in the problem and a capacity to contribute 
to the solution through more responsible choices. I look forward to 
working with my colleagues to promote greater awareness of labor 
trafficking and ensure the protection of those who seek to make 
meaningful contributions to economies throughout the OSCE region.

  Prepared Statement of Ambassador Luis CdeBaca, Director, Office To 
  Monitor and Combat Trafficking in Persons, U.S. Department of State

    Good morning and thank you for the opportunity to testify before 
the Commission today. I'd like to thank Chairman Smith for his 
leadership on the issue of trafficking, and I applaud his decision to 
use the stature of the Helsinki Commission to shed a light on the 
problem of trafficking for labor exploitation in the United States.
    Estimates on the total number of trafficking victims in the world 
start at 12.5 million on the low end and reach to 27 million on the 
high end. The victims are fishermen trapped on boats, their passports 
confiscated, forced to work twenty-hour days. They are women drawn away 
from their homes with the promise of good work, only to find themselves 
trapped as domestic servants with no pay and no way to escape. They are 
men brought overseas by unscrupulous recruiters who put them to work in 
fields and factories and force them to pay back the recruiters' fees.
    This problem is not isolated in faraway places in the world or 
limited to countries stricken by poverty or lack of opportunity. It's 
happening right here in the United States. As a federal prosecutor, I 
saw it firsthand. The reality of this crime becomes very clear through 
the stories of survivors, many of whom found themselves deceived and 
trapped while in the hopeful pursuit of a life of greater opportunity 
and freedom.
    It's difficult to know exactly how many victims of labor 
trafficking there are in the United States. Trafficking in persons is a 
hidden crime, and gathering accurate statistics on the number of 
victims is an ongoing challenge. Victims of trafficking are often 
afraid or unable to come forward, and definitional difficulties, 
circular reporting, and the frequent intermingling of human trafficking 
and smuggling make accurate reporting nearly impossible. So rather than 
attempting to precisely outline the scope of the problem, I hope this 
testimony will help to highlight particular challenges in combating 
labor trafficking, including those singled out by the Commission; 
summarize the positive steps we have taken; share the promising 
practices we have seen from government, law enforcement, and civil 
society; and lay out where we need to go from here to expand and 
improve our efforts to combat labor trafficking in the United States.
    The strategy that we use across the US government to address modern 
trafficking is based on the 3P Paradigm--prosecution, protection, and 
prevention--set forth in the UN Palermo Protocol, the decade-old 
document that established the framework for the modern anti-trafficking 
movement. In all three areas, we are seeing progress, and interagency 
coordination continues to improve so that across government we are 
united in this struggle.
    In particular, I'd like to praise my colleagues at the Department 
of Labor [DOL] for implementing a rule that strengthens protections for 
Temporary Agricultural Employment H-2A Aliens in the United States. 
Guest workers are a group particularly at risk for trafficking, and 
this DOL regulation reduces the risk of worker exploitation by 
reinstating a requirement that employers provide documentation, as part 
of the application for guest worker visas, that they have complied with 
the prerequisites for bringing H-2A workers into the country and by 
returning to a methodology for calculating adverse effect wage rates, 
which results in higher wages for workers. Additionally, DOL has 
prohibited requiring H-2A workers to pay certain fees, including 
recruitment fees, and improved its own ability to ban employers who 
have committed violations of the agricultural program from filing 
future H-2A labor certification applications.
    Building on that initiative, DOL last year entered into a revised 
agreement with the Mexican Embassy and the Mexican Ministry of Foreign 
Affairs to ensure that Mexican workers in the United States are 
informed of their labor rights through their consular offices. This 
information can assist vulnerable workers, including persons who may 
have been trafficked.
    And of course, DOL's lists published by their Office of Child 
Labor, Forced Labor, and Human Trafficking, such as the List of Goods 
Produced by Child Labor or Forced Labor, prove invaluable in 
demonstrating just how closely connected we are to this abuse around 
the world.
    Despite these and other successes, we need to continue building our 
capacity and ensuring that the needed resources are in place to make 
anti-trafficking efforts across government more coordinated and 
effective. Today, with respect to labor trafficking in the United 
States, I'd like to look at the way new ideas about prevention are 
going to shape the future of this fight.
    Prevention has long been the afterthought of the 3Ps in comparison 
to its seemingly more tangible counterparts of prosecution and 
protection. Prevention has either been relegated to the realm of poster 
campaigns in airports and train stations, or regarded as an abstract 
goal tied to massive structural problems such as gender inequality and 
poverty. But as our understanding of human trafficking grows, so too 
grows the possibility of making real inroads when it comes to 
prevention.
    A good place to start is by considering the way those of us in the 
United States interact with labor trafficking on a day-to-day basis, 
which we all do. Forced labor is prevalent in the production of a wide 
range of raw materials, from cotton and chocolate and coffee to steel 
and rubber and tin. All of us come in contact with products tainted by 
labor trafficking, and even reputable and responsible corporate 
citizens can profit from abuse. It is this knowledge that has enabled 
us in recent years to focus on the importance of supply chain 
monitoring and to call for increased leadership from the private 
sector.
    Consumer spending and corporate investment in business are 
significant motivators that can turn around a system that has allowed 
traffickers and economies to operate with impunity. There is an 
increasing push for consumer transparency, certification, and more 
rigorous regulation. Research suggests companies investing in fair 
labor practices and labeling their products accordingly improve 
conditions on the ground and drive up the demand for their products.
    A new push for corporate accountability is emerging, which demands 
companies focus their attentions beyond the places where their products 
are manufactured or processed, and look additionally at the sources of 
their human capital and the methods of recruitment tied to their supply 
chains, as well as the places where the raw materials are collected, 
harvested, or mined. Effective supply chain monitoring must go all the 
way down to raw materials. Such research will lead to an understanding 
of supply and demand factors that affect the workers whose labor 
contributes to downstream profits.
    In last year's Trafficking in Person's Report [TIP Report], the 
State Department published recommendations for verifiable corporate 
policies that prohibit the use of forced labor through the supply 
chain. Four major principles can help guide corporate action:
       Statements of corporate policy must incorporate truly 
independent verification;
       While remediation is important, when labor abuses rise to the 
level of a human trafficking offense, authorities should be notified;
       Governments must redefine norms and set standards to create a 
space for companies to take the lead on combating modern slavery;
       Lending institutions should consider establishing whether a 
company has a forced labor supply chain policy as a factor for 
determining that company's credit rating.
    The aim of supply chain monitoring is to find trafficking wherever 
it occurs, whether in manufacturing, harvesting of raw materials, or 
the commercial sexual activity aimed at business travelers. This 
knowledge will allow companies to staff and source their supply chains 
in a manner that diminishes the demand traffickers satisfy through 
violence and exploitation. We have developed a model set of policies 
that we believe will put companies on that path:
       Taking accountability for all the labor in the supply chain all 
the way down to raw materials, with a pledge to monitor compliance, 
remediate noncompliance, and verify those actions by an independent 
third party;
       Honoring the role and voice of the worker as the best check on 
abuse;
       Publicly disclosing mechanisms for providing independent, 
unannounced, and thorough audits;
       Providing effective whistleblower and complaint procedures;
       Providing clear guidelines for security procedures throughout 
the supply chains to ensure that security forces are not used to 
intimidate, hold, or abuse workers;
       Regularly updating shareholders and stakeholders on creation, 
maintenance, and implementation of their related policies;
       Guaranteeing all workers mobility by strictly forbidding any 
confiscation of official documents;
       Committing to providing restitution for victims and other forms 
of remediation;
       Complying with trafficking-related local laws and international 
standards for confronting human trafficking and protecting victims;
       Monitoring labor recruitment practices to ensure those working 
on guest worker or sponsorship systems are not exploited by recruiters; 
and
       Holding employees accountable for any violation or exploitative 
conduct contributing to trafficking in persons.
    While these recommendations from the TIP Report are a good starting 
point, we have already seen private-sector actors take the next steps 
by embracing the notion of supply-chain monitoring. A conference last 
winter produced the Luxor Implementation Guidelines to the Athens 
Ethical Principles. The Athens Ethical Principles are the product of a 
2006 meeting of NGOs, governments, businesses, international 
organizations, and individuals, and they express a set of values 
opposed to trafficking in persons. But it was the Luxor conference that 
put in place standards for implementing those principles. According to 
the guidelines, they seek ``to help move beyond aspirational statements 
to the development of standard operating procedures--a way to move 
beyond principles to practice and implementation.'' To date nearly 600 
companies have adopted the guidelines.
    The Luxor Guidelines represent the future of the way we look at 
demand for forced labor. If there were no demand for the cheap goods 
tied to forced labor, then suddenly the profit motive for traffickers 
would no longer be worth the risk of engaging in a criminal enterprise.
    And though the success of this approach requires motivated and 
willing private-sector actors, government's role will remain central.
    California recently enacted a law that serves as a good example of 
legislation encouraging the private sector to look at their supply 
chains and consider their impacts on labor trafficking. California now 
requires its largest retailers and manufacturers to make public 
whatever efforts, or lack thereof, they have made to eliminate human 
trafficking from their supply chains. This is not a burdensome piece of 
legislation; it does not require corporations to adopt sweeping new 
policies for monitoring their supply chains. It just requires 
transparency. Of course, like the enactment of many trafficking laws, 
it was a partnership between government and the activist community that 
helped usher this process along, and it would not have been possible 
without the commitment and leadership of Julia Ormond, who will testify 
before this Commission later today and can likely provide greater 
insight on this outstanding legislation.
    Beyond legislating, governments can use their leverage as consumers 
to curb the demand for forced labor. We have already taken steps in the 
US government's procurement and contracting policies to protect against 
both sex and labor trafficking. The Department of Homeland Security and 
the Equal Employment Opportunity Commission co-chaired a temporary 
working group on implementation of the Federal Acquisition Regulation 
to combat modern slavery and its contributing factors like the demand 
for commercial sex. The group is developing a training program for the 
federal acquisition workforce to be considered for adoption by all 
agencies and deployment at the Federal Acquisition Institute.
    Additionally, if government at all levels made commitments to 
reduce their slavery footprint--to support private-sector partners that 
had adopted anti-trafficking practices--the ripple effect could be 
tremendous. Forging partnerships to raise awareness about slavery 
footprint issues holds great potential. The State Department 
Trafficking in Persons Office is currently working with civil society 
and private sector partners to develop a tool that will allow 
individuals to determine not only their slavery footprint in their 
purchasing habits, but the steps they can take to reduce it.
    Lastly, there can be no substitute for continued strong government 
action on all fronts of the anti-trafficking movement. The United 
States must continue to prosecute and punish traffickers. We need to 
enhance our efforts to identify victims, offer them protection, and 
provide survivors with the support and resources they need. We need to 
work with civil society and the international community as a global 
leader in the fight against modern slavery.
    A decade into the modern anti-slavery movement, we find ourselves 
at a moment to ask the question ``What are the next steps?'' In the 
United States, and in many places around the world, the legal 
structures are in place, the political will has grown, and we are 
beginning to see progress. The fact that we're having a hearing on 
labor trafficking and supply chain monitoring shows how far this 
movement has come. The fact that this commission recognizes the 
importance of partnering with the private sector and civil society 
speaks to the tremendous potential of what lies ahead. I believe that 
with the engagement of dedicated lawmakers and the commitment of the US 
government, the next ten years of this struggle will be a decade of 
delivering on what we've promised. I look forward to working with you 
as we continue this important struggle, and I again thank you for the 
opportunity to testify today.

 Prepared Statement of Gabriela D. Lemus, Labor Representative to the 
     Senior Policy Operating Group on Trafficking in Persons, U.S. 
                          Department of Labor

                              Introduction

    Chairman Smith, Co-Chairman Cardin, and distinguished members of 
the Commission, on behalf of the Department of Labor and Secretary 
Hilda L. Solis, thank you for the opportunity to discuss the 
Department's efforts to combat human trafficking, both domestically and 
abroad.
    President Obama and Secretary Solis are deeply committed to 
addressing the problem of human trafficking and the Administration and 
the Department of Labor are working to enhance efforts to combat 
trafficking and assist victims. It has been more than a decade since 
enactment of the Trafficking Victims Protection Act [TVPA] and the 
fight against trafficking in persons continues.
    The Department of Labor's commitment to fighting human trafficking 
is rooted in its long history of working to protect and assist our 
nation's most vulnerable workers, some of whom may wind up in forced 
labor. Labor trafficking subjects women, children, and men to the most 
extreme forms of workplace exploitation. Workers who are trafficked are 
denied not only their wages, but their human rights.
    As one of Secretary Solis' priorities, the Department is engaged 
both domestically and internationally to better serve and protect 
vulnerable workers. Our efforts to ensure that workers are afforded all 
of their rights under the law include initiatives to combat human 
trafficking in all of its forms. The Secretary leads a coordinated 
effort across the Department to achieve our goal of making progress in 
this important fight against human trafficking. Under her leadership, 
the Wage and Hour Division [WHD], the Bureau of International Labor 
Affairs [ILAB], and the Employment and Training Administration [ETA] 
work collaboratively to ensure that the Department uses all available 
tools in the most efficient and effective manner to protect these 
vulnerable populations. I am pleased to report to the Commission on 
these efforts.

                    The Wage and Hour Division [WHD]

    The Wage and Hour Division of the Department of Labor enforces some 
of the nation's most comprehensive federal labor laws, including the 
minimum wage, overtime pay, child labor, the employment of persons with 
disabilities, family and medical leave, the employment of temporary or 
seasonal migrant workers, and prevailing wages for government service 
and construction contracts. These enforcement responsibilities allow 
WHD to have a daily presence in American workplaces and, while the 
Agency does not have responsibility to investigate trafficking 
directly, many of WHD's investigations take place in industries marked 
by workers who are vulnerable to trafficking. This means the Wage and 
Hour Division is often the first federal agency to make contact with 
the workers who may have been trafficked or may be otherwise employed 
under abusive conditions in violation of the law.
    In industries with vulnerable workers like restaurants, garment 
manufacturing, and agriculture, investigators interview workers and 
assess situations where workers may have been intimidated, threatened, 
or held against their will. Investigators also review payroll records 
and inspect migrant farm worker housing. Criminal activity found in the 
workplace by WHD investigators may be referred to an appropriate 
authority as part of standard WHD procedure. After a referral is made, 
WHD's assistance may be requested to compute back wages to ensure 
restitution on behalf of victims of trafficking, and to assess 
penalties against the employer.
    WHD representatives currently participate in approximately 25 human 
trafficking task forces around the country, including in Los Angeles, 
Houston, Phoenix, and Long Island. WHD's primary responsibility on 
these task forces is to report trafficking crimes to the task force 
when detected during the course of an investigation, and provide 
assistance in calculating back wages/restitution owed to victims of 
trafficking.
    Additionally, WHD is a member of the Federal Enforcement Working 
Group [FEWG], along with the Department of Justice, the Federal Bureau 
of Investigation, the Department of Homeland Security--U.S. Immigration 
and Customs Enforcement, and the DOL-OIG. As part of the FEWG, WHD is 
participating in the development and implementation of a Pilot Federal 
Anti-Trafficking Coordination Team [ACTeam] Program. The goal of the 
ACTeam Program is to proactively identify and assist human trafficking 
victims; develop victim-centered, multi-disciplinary human trafficking 
investigations; and produce high-impact human trafficking prosecutions 
resulting in the conviction of traffickers, the dismantling of 
trafficking organizations, and the forfeiture of proceeds and 
instrumentalities of trafficking offenses. WHD's role in the program 
focuses on helping to detect trafficking indicators during 
investigations, and computing back wages owed to trafficking victims. 
DOL's Office of the Inspector General strengthens this collaboration 
through its expertise in investigating labor racketeering and visa 
fraud violations that occur in connection with labor trafficking 
offenses.
    Department of Homeland Security [DHS] regulations [8 C.F.R.  
214.14 [a] [2]] expressly list certain federal law enforcement agencies 
that may certify U nonimmigrant status [U visa] applications, including 
the Department of Labor. Under that regulation the Department of Labor 
is identified as an agency with jurisdiction to conduct investigations 
of violations of laws. In its role of investigating workplace laws, the 
Department of Labor may detect evidence that a worker is a victim of 
certain criminal activity, including trafficking, that may qualify the 
worker for U nonimmigrant status. On April 28, 2011, the Department of 
Labor announced protocols to complete, as appropriate, a certification 
that the individual petitioning for U nonimmigrant status is a victim 
of a qualifying crime and is, has been, or is likely to be helpful in 
the investigation or prosecution of that crime. This certification must 
be included by an individual in his or her U nonimmigrant status 
petition to DHS U.S. Citizenship and Immigration Services. The U 
nonimmigrant status certification process has been delegated to the 
Wage and Hour Division's regional administrators located in five cities 
around the country.
    In May 2010, to support and enhance WHD's enforcement efforts, the 
Department entered into a revised Joint Declaration and revised Letters 
of Agreement with the Mexican Embassy and Mexican Ministry of Foreign 
Affairs, updating 2004 agreements between the two countries. In March 
2011, the Department signed a similar agreement with the El Salvadorian 
Ministry of Foreign Affairs. These agreements aim to ensure that 
workers from these countries who are employed in the United States are 
informed about their labor rights through information sharing, 
outreach, education, training, and exchange of best practices. Such 
information can assist vulnerable workers, including those who may have 
been trafficked. DOL is also expanding the program to include 
partnerships with embassies from Central America and the Caribbean. In 
December 2010, ambassadors from nine Central American and Caribbean 
countries met with Secretary Solis to learn about the program and 
potential areas for partnership. In addition to these formal 
declarations, WHD also participates in several other outreach and 
partnership activities to share information and leverage community-
based resources to more effectively inform workers about their rights 
and how to file wage and hour complaints.

                 Bureau of International Labor Affairs

    The Department's Bureau of International Labor Affairs builds 
relationships and funds programs in developing countries to improve 
working conditions and labor standards across the global economy.
    ILAB plays a critical role in bringing to light the dark stories of 
human trafficking. By bringing these stories to the public's attention, 
the Department is hopeful that countries and companies will change 
their behavior and reform their worst practices. On December 15, 2010, 
the Department released three new reports on child labor and forced 
labor. All three reports include information on persons in severe labor 
exploitation, such as forced labor, servitude, or debt bondage. 
Together these reports demonstrate that from factories to the farms, 
abuses of fundamental human rights, including human trafficking, still 
persist in the 21st century. These reports are:
       The List of Goods Produced by Child or Forced Labor, pursuant 
to the 2005 Trafficking Victims Protection Reauthorization Act, 
identifies 128 goods from 70 countries that DOL has reason to believe 
are produced by forced labor, child labor or both, in violation of 
international standards;
       The List of Products Produced by Forced or Indentured Child 
Labor, pursuant to Executive Order 13126 of 1999, includes 29 products 
from 21 countries; and
       The 9th annual Findings on the Worst Forms of Child Labor. DOL 
has published this report since 2002, but last year the report was 
reformatted, and for the first time identifies gaps in government 
efforts and includes country-specific suggestions for government 
action. By providing more analysis and specific suggestions for action, 
the redesigned report provides Congress and Executive Branch agencies 
with useful information to consider when making labor and trade policy.
    Since 1995, the U.S. Congress has appropriated over $839 million to 
ILAB for programs to combat international child labor. This funding has 
supported technical assistance projects in more than 80 countries, and 
reached approximately 1.5 million children at risk of or engaged in 
exploitive child labor. ILO Convention 182 identifies child trafficking 
as one of the worst forms of child labor, and it is through this 
framework that DOL addresses trafficking in its technical assistance 
projects. While the Department's technical assistance projects include 
stand-alone trafficking in persons projects, many also include multi-
faceted projects to address other worst forms of child labor in 
addition to trafficking. For example, the Department undertakes such 
projects to:
       Provide victims with rehabilitation services and educational 
opportunities.
       Facilitate increased access to economic and vocational 
opportunities for trafficked victims and their families.
       Support awareness raising campaigns about the risks of 
trafficking.
       Build capacity to strengthen enforcement efforts and promote 
legislative and policy reform to incorporate anti-trafficking 
initiatives.
       Collect reliable data about trafficking to better understand 
the problem.

                 Employment and Training Administration

    Because many of the most vulnerable workers in the United States 
are temporary foreign agricultural workers, the Department's H-2A 
program is another significant locus of the Department's efforts to 
combat trafficking. The Immigration and Nationality Act assigns 
specific responsibilities for the H-2A program to the Secretary of 
Labor. Among the responsibilities delegated to the Department's Office 
of Foreign Labor Certification are ensuring that U.S. workers are 
provided first access to temporary agricultural jobs and that the 
employment of the foreign workers does not adversely affect similarly 
employed U.S. workers. Accordingly, it is of great importance to the 
Department that both workers in the U.S. and temporary foreign workers 
are provided with appropriate worker protections. The Department 
ensures that these statutory responsibilities are met through 
regulatory standards for the acceptance and processing of employer-
filed H-2A applications.
    On March 15, 2010, a final rule addressing the temporary 
agricultural employment of H-2A aliens in the United States became 
effective. The H-2A final rule includes enhanced mechanisms for 
protecting workers, including H-2A temporary foreign workers who are 
increasingly susceptible to the abuses of dishonest employers and their 
agents such as foreign labor recruiters. The Secretary has tasked the 
Employment and Training Administration with taking an active role in 
ensuring compliance with H-2A protections because temporary foreign 
workers remain unlikely to file complaints about violations of their 
rights under the program.
    The Department believes that requiring employers to bear the full 
cost of their decision to employ nonimmigrant workers is a necessary 
step toward preventing the exploitation of such workers. Therefore, the 
2010 Final Rule prohibits employers or their agents from seeking or 
receiving payment of any kind from an H-2A worker for any activity 
related to obtaining the necessary labor certification, including the 
employer's attorneys fees, application fees, or recruitment costs, 
unless the employers are being reimbursed for costs that are the 
responsibility of the worker, such as government-required passport 
fees. The regulation also prohibits ``kick backs'' from the H-2A worker 
to the employer or any other deductions that reduce the actual wage 
paid to the worker below the required H-2A wage; and requires employers 
to pay transportation costs between the place of employment and the 
place from which the H-2A worker has come, as well as subsistence 
costs, and visa fees.
    Moreover, amidst reports of H-2A temporary foreign workers being 
required to give recruiters thousands of dollars to secure a job, the 
Department recognized that such practices adversely affect the wages 
and working conditions of U.S. workers by creating conditions akin to 
indentured servitude, driving down wages and working conditions for 
foreign and domestic workers. Therefore, the 2010 Final Rule requires 
employers to contractually forbid foreign labor contractors or 
recruiters engaged in international recruitment of H-2A workers from 
seeking or receiving payments from such prospective employees.
    Lastly, in an effort to ensure worker protections and program 
integrity, the 2010 Final Rule requires employers to provide the H-2A 
worker a written copy of the work contract no later than at the time 
the foreign worker applies for a visa, and to post and maintain in a 
conspicuous location at the place of employment a poster provided free 
of charge by the Secretary of Labor which sets out the rights and 
protections for foreign workers.
    The 2010 H-2A Final Rule's enhanced enforcement provisions allow 
the Department to investigate and sanction employers and their agents 
or attorneys where there is a violation of regulation provisions. The 
possible sanctions include debarment from the program for up to three 
years, revocation of an already approved labor certification, and/or 
special procedures for future applications where a less than 
substantial violation has occurred. If an employer is found to have 
failed to meet its legal obligations under the 2010 Final Rule, for 
example by violating the prohibition on making workers pay for 
recruiter fees, the Department may seek recovery of those recruitment 
fees and obtain temporary or permanent injunctive relief, as well as 
assess civil money penalties against the employer. These monetary 
penalties demonstrate the Department's commitment to strengthening the 
necessary enforcement of a law that protects workers who are unlikely 
to complain to government agencies about violations of their rights 
under the program.

                               Conclusion

    In today's global economy, workers in any country are vulnerable to 
trafficking and labor rights abuses. The Department's innovative and 
integrated programs help workers earn decent incomes and prevent them 
from being abused and exploited. This approach is a vital part of the 
Administration's goal of ensuring that globalization provides benefits 
and opportunities for workers everywhere, rather than triggering a 
``race to the bottom.''
    Again, thank you for the opportunity to testify today. I am happy 
to answer any questions the Commission may have on the Department of 
Labor's work to combat human trafficking.

 Prepared Statement of Nancy A. Donaldson, Director, Washington Office 
             of the International Labor Organization [ILO]

    Chairman Smith, Co-Chairman Cardin and Members of the Commission, 
thank you for inviting me to brief the Commission on the ILO's 
perspective and its work on migration, forced labor and human 
trafficking.

                          International Trends

    The migration of human beings today is, as it has always been, a 
function of the search for greater opportunity. Each year millions of 
people leave their homes and cross national borders in search of better 
prospects and greater security for themselves and their families, 
undertaking jobs ranging from manual labor to science and technology. 
Migration takes place between developed and developing countries and 
among developing countries as well. International migration is on the 
rise and will continue to grow in the coming decades due to growing 
income inequality and wealth concentration across countries, lack of 
jobs and economic opportunities where people live, environmental and 
natural disasters, political persecution, armed conflict, and lower 
population growth in most destination countries.
    Ninety percent of all migrants are workers and their families. 
According to UN and ILO estimates, international migrants reached 214 
million in 2010, of which 105 million [49 per cent] are economically 
active migrants. Women make up almost 50 per cent of all international 
migrants. Thus, international migration is primarily about the search 
for decent work and livelihoods.
    Migrants make significant contributions to social progress and 
welfare in both their country of origin and the ``destination'' 
countries where they work. They bring skills, labor knowledge and 
initiative to advance economies in host countries. They also benefit 
origin countries--sending money home, and through transfer of 
technology and critical skills and investments through return migration 
and Diasporas.
    Today we are here to discuss urgent problems often faced by 
vulnerable migrant populations and individuals, criminal trafficking 
and forced labor and the actions that the ILO and others are taking to 
eradicate these abuses across national borders and within countries. 
With growing labor demand in some sectors and regions, malpractices by 
private recruitment agencies involving high fees and misleading 
information is a substantial issue in the globalized economy. Migrants 
are vulnerable to exploitation, experience deskilling and 
discrimination, and poor workforce integration in host countries. In 
the extreme, irregular migration includes trafficking, smuggling, 
sexual exploitation and violence.
    As ILO's recent report highlights,\1\ forced labor today is the 
antithesis of decent work and a global problem affecting almost every 
country in the world. Until very recently, the bulk of forced labor and 
slavery-like practices were bound up with traditional forms of serfdom, 
with individuals tied to agrarian landlords and others. Today forced 
labor is mostly found in the informal economy in developing and 
industrialized countries alike. It is affecting vulnerable women much 
more than before. Moreover, a key feature of modern forced labor is the 
exploitation of the poor and vulnerable by intermediaries, and is 
basically a form of modern debt bondage. There are new forms or 
patterns of coercion creeping into production systems and labor markets 
around the world, mainly in the informal economy, but also sometimes in 
the supply chains of modern industrial enterprises and supermarkets.
---------------------------------------------------------------------------
    \1\ ILO. 2009. The Cost of Coercion. Geneva.
---------------------------------------------------------------------------
    Traditional slavery is still found in some parts of Africa, while 
forced labor in the form of coercive recruitment is present in many 
countries of Latin America, parts of the Caribbean and elsewhere. 
Around the world, domestic workers are trapped in situations of forced 
labor, with some restrained from leaving their employer's home by means 
of threat or actual violence. Bonded labor persists in South Asia where 
millions of men, women, and children are tied to their work through a 
vicious cycle of debt. In Europe and North America, an increasing 
number of women and children are victims of traffickers who sell them 
into forced prostitution or sweatshops. Finally, forced labor is 
sometimes still imposed as a punishment for expressing one's political 
views.
    The ILO estimates that there are at least 12.3 million persons in 
forced labor today. Globally, only 20 percent of all forced labor is 
exacted by the State or armed forces. Eighty percent of forced laborers 
or 9.8 million people were exploited by private agents. Of this 
majority, 11 percent is exacted for forced commercial sexual 
exploitation, while 64 percent is exacted for the purpose of economic 
exploitation. Reliable statistical information about the economic 
sectors where forced labor is found remains difficult to establish. 
Most victims are poverty-stricken people in Asia and Latin America, 
whose vulnerability is exploited by others for a profit. Yet, over 
360,000 women and men [3 percent of the total] are in forced labor in 
industrialized countries, trafficked for either labor or sexual 
exploitation. Some 56 percent of all persons in forced labor are women 
and girls. Children under 18 years of age make up between 40-50 percent 
of forced laborers.
    The ILO is actively focused on people within contract labor and 
recruitment systems and domestic workers. The ILO has taken up the 
issue of protecting domestic workers vigorously. Last year, the ILO 
International Labor Conference [ILC] began consideration of a Domestic 
Worker's Convention. It is expected to receive the second round and 
final consideration and a formal vote during the meeting of the 100th 
ILO ILC this June. The U.S. has been an important leader on protecting 
domestic workers. We appreciate U.S. support for the convention and we 
welcomed the April 2011 statement made by the U.S. mission in response 
to the OSCE Report on Human Trafficking.

                          ILO Labor Standards

    One principal responsibility of the ILO is drawing up and 
overseeing international labor standards. Since 1919, the member 
countries, employers and workers that make up the tripartite structure 
of the ILO have developed and maintained a system of international 
labor standards aimed at promoting opportunities for women and men to 
obtain decent and productive work, in conditions of freedom, equity, 
security and dignity. Strong enforcement of labor standards worldwide 
levels the playing field for all workers, including American workers 
and industries. In today's globalized economy, international labor 
standards are also an essential component for ensuring that the growth 
of the global economy provides benefits to all.
    The ILO has pioneered the development of international standards 
prohibiting forced labor and for the governance of labor migration and 
protection of migrant workers since the 1930s. Universal human rights 
are applicable to all human beings irrespective of nationality. 
Moreover, the core labor rights--in the eight Conventions of the ILO 
Declaration on Fundamental Principles and Rights at Work [1998]--are 
applicable to all workers including all migrant workers. Two of the 
eight core conventions [C. 29 [1930] & C. 105 [1957]] prohibit all 
forms of forced or compulsory labor and prohibit forced or compulsory 
labor as a means of political coercion or education or as a punishment 
for holding or expressing political views or views ideologically 
opposed to the established political, social or economic system; as a 
method of mobilizing and using labor for purposes of economic 
development; as a means of labor discipline; as a punishment for having 
participated in strikes; and as a means of racial, social, national or 
religious discrimination. Additionally, forced or compulsory labor is 
considered to be one of the worst forms of child labor in the Worst 
Forms of Child Labor Convention No. 182 [1999].
    The ILO Conventions on migrant workers--Migration for Employment 
No. 97, [1949] and the Migrant Workers [Supplementary Provisions] 
Convention No. 143, [1975] define the rights of migrant workers, and 
advocate the principles of equal treatment, equality of opportunity and 
non-discrimination. The 1990 UN Internatinoal Convention on the 
Protection of the Rights of All Migrant Workers and Members of their 
Families has elaborated and expanded on these rights. These three 
Conventions together define a comprehensive charter of migrant rights 
and provide a legal basis for national policy and practice on migrant 
workers.
    Member States of the OSCE have made significant commitments to 
International Labor Standards relevant to forced labor and migration. 
The vast majority of OSCE states have ratified the Conventions 
prohibiting all forms of forced labor. Additionally, 93 percent have 
ratified Convention 182 on the worst forms of child labor. Regarding 
migration, the record of ratifications is lower: only 20 OSCE countries 
ratified Convention 97 and 14 have ratified Convention 143.

                              ILO Programs

    The ILO has two specialized programs--The International Migration 
Program [ILO MIGRANT] and the Special Action Program to combat Forced 
Labor [SAP-FL] to assist ILO countries and partners with the challenges 
of labor migration and forced labor.
    The ILO Governing Body created the Special Action Program to combat 
Forced Labor in November 2001 as part of broader efforts to promote the 
1998 Declaration on Fundamental Principles and Rights at Work and its 
Follow-up. The ILO is promoting a Global Alliance with partner agencies 
pooling their efforts to eliminate forced labor worldwide by 2015.
    ILO's International Migration Program supports effective practices 
by the ILO member States in combating discrimination against migrants 
and in helping their social and economic integration. The program is 
currently implementing the Plan of Action of 2004 which consists of 
seven components, including a Multilateral Framework, promoting the 
application of international labor standards, strengthening social 
dialogue, technical assistance for capacity building, and supporting 
the ILO global employment agenda at national levels. The Multilateral 
Framework provides non-binding principles and guidelines to assist 
countries in developing more effective labor migration policies and 
includes a set of best practices. Currently the program is engaged in 
14 technical cooperation projects either funded by or to be implemented 
in OSCE countries, to develop effective migration systems, policies, 
and strategies; strengthening pertinent government institutions, and 
educating migrants on their rights and available services
    The ILO has been at the forefront of generating and sharing data 
and knowledge on these topics, to raise public awareness and increase 
pressure for action. ILO's initial body of research was seminal as it 
has provided the basic facts and figures on modern forced labor, 
raising the global pressure for policy change. The ILO has continued to 
expand the global knowledge base on forced labor, for example 
commissioning focused studies in methodologically challenging and 
politically sensitive areas.
    I would like to emphasize that improving data collection on these 
issues is of paramount importance. Significant gaps in understanding 
the quantitative dimension of forced labor and human trafficking 
remain. The few available national estimates are generally calculated 
on the basis of secondary data. The ILO is working with governments to 
improve indicators and data collection on forced labor and human 
trafficking to promote better enforcement and monitor the impact of 
national and international policies.
    The ILO has developed and disseminated courses, guidance and 
training materials on key aspects of forced labor and trafficking. For 
example, a regular course on labor migration was launched in 2007 at 
ILO's training center in Turin, Italy. In July 2011 the Labor Migration 
Academy will provide advanced knowledge and enhance the capacity of key 
migration actors to better understand labor migration challenges and 
opportunities. A set of handbooks and training manuals for recruiters, 
labor inspectors, businesses have been developed to provide guidance 
and strategies about forced labor.\2\
---------------------------------------------------------------------------
    \2\ See, for example, Trafficking For Forced Labor--How To Monitor 
The Recruitment of Migrant Workers [2006]; Forced Labor and Human 
Trafficking: Handbook for Labor Inspectors [2008]; Handbook for 
Employers & Businesses [2008].
---------------------------------------------------------------------------
    Cooperation between the OSCE and the ILO on research and training 
has helped our economic partners to access important knowledge and 
expertise on these topics. For example, a number of migration handbooks 
have been jointly developed to assist countries in their efforts to 
develop new policy approaches, solutions and practical measures for 
better management of labor migration in countries of origin and of 
destination. Training projects were organized in 2010 focusing on 
gender aspects in labor migration policies. Last week, ILO participated 
in a two-day OSCE conference in Tbilisi, Georgia focusing on building 
partnerships to combat human trafficking and forced labor as part of a 
European Union-funded regional anti-trafficking project in the South 
Caucasus. In June 2011, ILO will participate in the Alliance Against 
Trafficking in Persons meeting in Vienna, Austria--an international 
forum which aims at combining the efforts of the stakeholders to 
prevent and combat human trafficking.
    The ILO assists governments in designing and implementing projects 
on the ground. Through our Decent Work country program strategies, the 
ILO works with employers, workers and governments to set out agreed 
national priorities in the world of work. Experience shows that, with 
careful awareness-raising, consensus can be built to include sensitive 
subjects, such as forced labor, among the core national priorities. 
Bolivia and Nicaragua are examples of countries which have included the 
abolition of forced labor as a specific Decent Work Agenda priority. In 
Asia, Pakistan has included a direct commitment on reducing bonded 
labor. The U.S. Office to Monitor and Combat Trafficking in Persons [G/
TIP] is providing leadership and grants to eliminate human trafficking 
globally, support the victims of trafficking and to prosecute 
traffickers. In Turkey, through the ILO's International Program on the 
Elimination of Child Labor [IPEC], the U.S. Department of Labor 
sponsored a project that withdrew or protected over 13,000 children 
from the worst forms of child labor between 2003 and 2006.
    In Brazil, the ILO has been working with our social partners on the 
issue of forced labor in global supply chains. In many sectors, 
enterprises outsource a range of production and service-related 
activities which results in complex international supply chains. The 
growth of supply chains and outsourcing has raised issues surrounding 
the application of international labor standards on suppliers. The 
abolition of ``slave labor'' and the worst forms of child labor are a 
key priority in Brazil's ``National Agenda for Decent Work''. With 
grant support from the Bureau of Democracy, Human Rights, and Labor 
[DRL] of the State Department, the project ``Eradicating Forced Labor 
from Global Supply Chains through Social Dialogue'' [2005-2011] has 
promoted new understanding and strategies for engagement. The key 
objective is to strengthen the Global Alliance Against Forced Labor by 
reducing risks of trafficking and forced labor facing Brazilian 
suppliers and international buyers. The public and private sector 
efforts in Brazil have helped to raise awareness about forced labor, 
mobilize companies, rescue thousands of forced laborers, and map 
complex supply chains in a range of industries.

                              Conclusions

    I want to leave the Commission with three key points:
    One--Good migration polices and the abolition of forced labor are 
challenges for every country--whether industrialized, emerging 
economies or less developed. The ILO is playing a critical role in 
assisting countries to bring decent working conditions to citizens and 
migrants alike, and ending forced labor and trafficking. However, we 
believe that true gains in the governance of migration, and against 
forced labor and human trafficking must happen in a multilateral 
context. By definition, international migration and human trafficking 
require common approaches and means for cooperation among States.
    Two, the ILO takes a rights-based approach to these issues. The ILO 
is devoted to promoting social justice and internationally recognized 
human and labor rights, pursuing its founding mission that labor peace 
is essential to prosperity. Basic human rights, including core labor 
rights of all workers, both men and women, and children, migrants and 
other vulnerable workers should be respected.
    Three, governance of migration and forced labor deserves a multi-
stakeholder approach. The ILO works with governments and strong social 
partners in devising innovative and sustainable solutions to these 
issues. Cooperation between the economic partners--government, 
employers and workers is critical to reducing irregular migration and 
ending forced labor and ensuring protection of workers' rights.
    We at the ILO have enjoyed fruitful partnerships with G/TIP and DRL 
at the U.S. Department of State, and with the Bureau of International 
Labor Affairs within the U.S. Department of Labor while working on 
these important issues. We respect and seek more ways to work with the 
outstanding initiatives of the Solidarity Center. We are dedicated to 
continue working together to improve migrants' conditions and to end 
forced labor and human trafficking around the world.
    Thank you once again for inviting me to participate in this 
hearing, Chairman Smith, Co-Chairman Cardin and distinguished Members 
of the Commission. I am happy to answer any questions you may have.

  Prepared Statement of Neha Misra, Senior Specialist, Migration and 
                  Human Trafficking, Solidarity Center

``Slavery without Shackles'': Labor Exploitation and the Trafficking of 
                  Vulnerable Workers around the World

    Thank you to the U.S. Helsinki commission for the opportunity to 
present the Solidarity Center's view about ``labor trafficking in 
troubled economic times'', and especially to highlight the 
vulnerability of immigrant workers \1\ to trafficking and forced labor 
within legal structures in the U.S. and around the world.
---------------------------------------------------------------------------
    \1\ The term ``migrant worker'' is the internationally accepted 
term for a person who migrates for employment, whether temporary, 
seasonal, or permanent. In the United States, in everyday language, 
``migrant worker'' refers to a seasonal or temporary worker, and 
``immigrant worker'' refers to someone who migrates for work on a more 
permanent basis, or who has residency rights. I will use the common 
U.S. term of ``immigrant worker'' in my testimony modifying it slightly 
to refer to any person who leaves his or her country of origin to find 
a job abroad--whether temporary, seasonal or permanent.
---------------------------------------------------------------------------
    My name is Neha Misra. I am the Senior Specialist for Migration and 
Human Trafficking at the Solidarity Center. We are an international NGO 
that promotes and protects worker rights globally, working in over 60 
countries. The Solidarity Center is an allied organization of the 
American Federation of Labor--Congress of Industrial Organizations 
[AFL-CIO], and a member of the Alliance to End Slavery and Trafficking 
[ATEST]. Building upon more than 20 years of experience in the areas of 
child labor and immigrant worker exploitation, the Solidarity Center 
raises awareness about the prevalence and underlying causes of 
trafficking for labor exploitation, and strives to unite disparate 
forces to combat the problem. Since 2001, the Solidarity Center has 
implemented more than 20 programs combating human trafficking in 
countries such as Thailand, Indonesia, Nepal, India, Sri Lanka, 
Pakistan, the Philippines, Bahrain, Qatar, Kuwait, Kenya, and the 
Dominican Republic. These programs include initiatives that address 
each of the four ``Ps'' that have become part of the anti-trafficking 
paradigm: prevention, protection of victims, prosecution [or as we 
prefer to describe it, ``rule of law''], and partnerships.

      Trafficking for Labor Exploitation in Today's Global Economy

    The Solidarity Center especially appreciates the Helsinki 
Commission's focus in this hearing on trafficking for labor 
exploitation and the focus on ``abusive, unethical, and illegal 
business practices that . . . contribute to human trafficking and 
forced labor.'' As a worker rights organization, the Solidarity Center 
has seen firsthand how violations of worker rights and the lack of 
labor standards and protections for workers increase their 
vulnerability to human trafficking.
    Too often the media and the public see human trafficking only as a 
crime of organized syndicates, of criminal gangs, or underground 
criminals who exploit undocumented immigrant workers. While this is of 
course true in some contexts, we are increasingly seeing trafficking 
for labor exploitation happening in the context of legal structures of 
employment and business--with traffickers who are employers and labor 
recruiters, not gang members.
    Examples abound around the world of human trafficking thriving in 
the context of worker exploitation:
       When immigrant workers are forced to pay high fees, often at 
exorbitant interest rates, to labor recruiters to work in another 
country, they are vulnerable to debt bondage--one of the most pervasive 
forms of modern day slavery. This is the case for 400 Thai workers who, 
according to a U.S. Department of Justice indictment, were allegedly 
trafficked to the United States by Global Horizons Manpower under the 
H-2A visa program through false promises of decent work. The Thai 
workers ``took on crushing debt to pay exorbitant recruiting fees, 
about $9,500-$21,000. After they arrived in America, according to the 
indictment, their passports were taken and they were set up in shoddy 
housing and told that if they complained or fled they would be fired, 
arrested or deported.'' \2\ Millions of other workers--including for 
example, Moldovan migrant agriculture workers in Italy and Vietnamese 
workers toiling in factories in Malaysia--can tell a similar story.
---------------------------------------------------------------------------
    \2\ Editorial, ``Forced Labor,'' September 7, 2010, http://
www.nytimes.com/2010/09/08/opinion/08wed2.html?_r=2
---------------------------------------------------------------------------
       When buyers pressure suppliers all along supply chains to 
achieve cutthroat prices for their products, workers are the ones that 
bear the burden as labor costs are often the first ones to be cut, 
increasing workers vulnerability to severe forms of labor exploitation, 
including human trafficking. This is the case for thousands of Burmese 
migrant workers who have been subject to forced labor and physical, 
emotional, and sexual intimidation in seafood-processing factories in 
Thailand, which export to the United States. The factories rely on 
trafficked workers to stay within the cost structure.
       When labor laws and regulations are not implemented, monitored, 
or enforced--when labor inspection is weak or nonexistent--workers are 
vulnerable to trafficking for forced labor and other forms of severe 
labor exploitation. When workers face retaliation for trying to 
exercise their rights or when workers lack access to avenues to address 
abuse, workers are vulnerable to human trafficking. This is the case 
for millions of domestic workers,\3\ agricultural workers, and 
immigrant workers in the United States and around the world who face 
extreme conditions of exploitation, including physical and sexual 
violence, confiscation of passports, illegal confinement, dangerous 
working conditions, and non-payment of wages. These workers are often 
explicitly excluded from the protection of labor laws, even when they 
are citizens or nationals of a country, and their work is often 
relegated to the informal economy where there is little labor 
inspection.
---------------------------------------------------------------------------
    \3\ The term ``domestic worker'' refers to a person who provides 
services--such as childcare, cooking, and cleaning--to or within a 
household.
---------------------------------------------------------------------------
    In 2011, a slave may not be in chains or shackles, but they are no 
freer. Slavery is not simply ownership of one person over another. 
Modern day slavery is much more subtle. Trafficking victims toil in 
factories that produce products that are exported to the United States, 
Europe, and other destinations. Trafficking victims harvest vegetables 
and process food that ends up on our dining room tables. They pick 
crops or mine minerals that are raw materials in the products we buy. 
They make the clothes and shoes we wear. They clean people's homes and 
take care of the young, elderly and sick. They are enslaved not only 
through physical restraint, but also through coercion, fear, and 
intimidation. In today's global economy, workers can be enslaved by 
threats of deportation, lack of viable alternatives, and especially 
debt.
    While trafficking for labor exploitation has many facets, several 
major trends in our globalized world endanger workers, particularly 
those most at risk and most in need of protection. In developed 
economies like in the United States and Europe, we are seeing an 
increase in cases of trafficked immigrant teachers, nurses, 
construction, and service sector workers--all in these destination 
countries with valid visas, shining a light on the structural failures 
within our economic and employment systems that increase immigrant 
workers' vulnerability to severe forms of labor exploitation. 
Multinational corporations, employers, businesses, labor recruiters and 
others exploit these failures.

 Trafficking as an Inherent Vulnerability in Temporary Labor Migration 
                                Schemes

    Of particular concern are temporary labor migration schemes--
sometimes referred to as guestworker, sponsorship or circular migration 
programs--that are increasingly being promoted by governments around 
the world to fill demand for cheap labor. In practice, these schemes 
create a legalized system and structure for employers to exploit 
workers, and increase workers' vulnerability to human trafficking and 
other forms of severe labor exploitation. Such programs have been 
plagued by a long history of abuses ranging from labor violations to 
visa fraud, debt bondage, involuntary servitude and trafficking for 
labor exploitation. This includes, among many others, the U.S. H-2 visa 
guestworker program, seasonal agricultural programs in Canada and 
Europe, and the ``kafala'' or sponsorship system in the Gulf 
Cooperation Council [GCC] countries.
    The Alliance to End Slavery and Trafficking or ATEST, of which the 
Solidarity Center is a member, recently described the problem in a 
submission to the U.S. Department of Labor as follows:\4\
---------------------------------------------------------------------------
    \4\ ATEST Comments on RIN 1205-AB58, Temporary Non-Agricultural 
Employment of H-2B Aliens in the United States [Employment and Training 
Administration, 20 CFR Part 655 and Wage and Hour Division, 29 CFR Part 
503], May 17, 2011.

          It is by now beyond dispute that temporary ``guestworker'' 
        programs have long worked to the detriment both o f the U.S. 
        workers who are bypassed in favor of foreign workers, and for 
        the foreign workers who fall prey to unscrupulous employers and 
        their labor contractors.\5\ Of particular concern to our 
        members, key aspects of the program lead to human rights 
        violations such as debt peonage [or debt bondage], trafficking 
        for labor exploitation and involuntary servitude, all forms of 
        modern-day slavery. Guestworkers' vulnerability is greatly 
        increased by the use of labor recruiters or foreign labor 
        contractors who lure impoverished and desperate foreign workers 
        to jobs within the United States described as plentiful and 
        lucrative. The opportunity to work in the U.S. comes with an 
        intolerably high price tag that includes inflated 
        transportation, visa, border crossing and other costs, and 
        ``recruitment fees.'' Often, workers literally mortgage family 
        properties or take out loans from loan sharks at exorbitant 
        rates in order to meet these obligations. Companies within the 
        United States claim no knowledge of their recruiters' actions 
        and escape legal liability on these grounds. The recruiters 
        themselves often remain beyond the reach of the U.S. legal 
        system.
---------------------------------------------------------------------------
    \5\ Southern Poverty Law Center, 2007. ``Close to Slavery: 
Guestworker Programs in the United States,'' http://www.splcenter.org/
pdf/static/SPLCguestworker.pdf; Closed and Criminal Cases Illustrate 
Instances of H-2B Workers Being Targets of Fraud and Abuse, GAO 10-
1053; testimony submitted by members of the Guestworker Alliance for 
Dignity to the House Committee on Oversight and Governmental Reform 
Domestic Policy Subcommittee, ``The H-2B Program and Improving the 
Department of Labor's Enforcement of the Rights of Guestworkers,'' 
April 9, 2009; The Costs of Coercion: Global Report under the Follow Up 
to the ILO Declaration of the Fundamental Principles and Rights at 
Work, International Labor Organization, International Labor Conference, 
98th Sess. 2009 Report I [B], http://www.ilo.org/wcmsp5/groups/public/-
--ed_norm/---relconf/documents/meetingdocument/wcms_106230.pdf.

          Once guestworkers arrive in the United States, the well-paid 
        jobs that have been offered [often] do not materialize. Workers 
        are left without work at all, or without work for the length of 
        time promised them. Favorable terms and conditions of work 
        offered in the home country are replaced by harsh conditions. 
        Job contractors transfer workers, for a price, to other 
        contractors. Workers who are dissatisfied with the jobs face 
        overwhelming subtle and not-so-subtle pressures to acquiesce. 
        Passports and other immigration and identity documents are 
        confiscated [by employers] to ensure that workers do not run 
        away. Families back home are threatened [by recruiters] with 
        physical violence, as well as family bankruptcy due to loss of 
        their investment in the worker. Workers who dare speak up for 
        their rights face job loss, followed by deportation to their 
        home countries and blacklisting. These factors lead workers to 
        fall into myriad situations that rise to the level of a severe 
        form of human trafficking, most notably coercion through abuse 
---------------------------------------------------------------------------
        or threatened abuse of the law or legal process.

          As noted in a recent ILO report, these conditions create a 
        program that is ripe for human rights violations. Human 
        trafficking abuses involving H-2B visas have been documented 
        with frequency in recent media.

    While the description above refers to the U.S. temporary 
guestworker program, the same scenario repeats itself around the 
world--for example, in Canada, Europe, the GCC, and around Asia. The 
common element is that these workers are trafficked within legal visa 
systems, fully documented, and that structural flaws within these 
programs allow workers to be trafficked.
    Two other major common themes emerge:
    1. The role of foreign labor recruiters in taking advantage of the 
lack of labor rights and inherent structural failures in these programs 
to exploit immigrant workers; and,
    2. The need to provide greater protections to workers and 
opportunities for them to report abuses and advocate for their own 
rights.

      The Role of Labor Recruiters in Promoting Human Trafficking

    Foreign labor contractors or recruiters are increasingly relied 
upon by employers, businesses, and multi-national corporations to 
facilitate the movement of labor from one country to another. While 
many labor recruiters behave ethically and are engaged in lawful 
conduct, other recruiters are often complicit with or directly involved 
in trafficking of workers. Recruiters often charge exorbitant fees for 
their services, forcing workers into debt bondage, falsifying 
documents, and deceiving workers about their terms and conditions of 
work increasing vulnerability to human trafficking.
    The incidence of known human trafficking cases involving foreign 
labor recruiters is increasing dramatically in the United States. The 
aforementioned Global Horizons case and the Signal workers case are 
just two recent examples. Many U.S.-based service providers state that 
regulating labor recruiters is one of the most important initiatives 
needed to combat human trafficking in the United States--both labor 
recruiters based in the U.S. and abroad. Employers rely on labor 
recruiters who have operations both in the U.S. and in foreign 
countries--as they use a system of subcontracting to find workers. The 
operations of such recruiters need to be regulated on both ends of the 
spectrum.
    Stricter regulation of labor recruiters is needed to protect 
workers entering the United States from human trafficking and other 
abuses such as wage theft. Stronger legal frameworks will help to 
prevent unregulated actors from conspiring to fraudulently deceive 
workers about the terms and conditions of work.
    To that end, ATEST has made a series of recommendations to include 
regulation of labor recruiters/foreign labor contractors in the 2011 
Reauthorization of the Trafficking Victim Protection Act [TVPRA 2011]. 
Similar provisions were passed in the 2008 House of Representatives 
version of the TVPRA. We have learned even more since 2008 about the 
need for greater regulation of foreign labor recruiters. As such, ATEST 
recommends, with the support of a number of worker and immigrant rights 
groups in the United States, the following for inclusion in the 2011 
TVPRA:
    1. Elimination of Fees: No foreign labor contractor, or agent or 
employee of a foreign labor contractor, should be allowed to assess any 
fee [including visa fees, processing fees, transportation fees, legal 
expenses, placement fees, and other costs] to a worker for any foreign 
labor contracting activity. Such costs or fees may be borne by the 
employer, but these fees cannot be passed along to the worker. This is 
one of the most crucial elements to eliminate debt bondage for 
immigrant workers.
    2. Disclosure: Foreign labor contractors and employers must be 
required to fully disclose to the worker in writing in English and in 
the language of the worker being recruited, all of the terms and 
conditions of their work. This includes:
       The identity of the employer and the identity of the person 
conducting the recruiting on behalf of the employer, including any 
subcontractor or agent involved in such recruiting.
       A signed copy of the work contract, including all assurances 
and terms and conditions of employment, from the prospective employer 
for whom the worker is being recruited, including the level of 
compensation to be paid, the place and period of employment, a 
description of the type and nature of employment activities, any 
withholdings or deductions from compensation and any penalties for 
terminating employment.
       The type of visa under which the foreign worker is to be 
employed, the length of time the visa is valid and the terms and 
conditions under which this visa will be renewed with a clear statement 
of whether the employer will secure renewal of this visa or if renewal 
must be obtained by the worker and any expenses associated with 
securing or renewing the visa.
       An itemized list of any costs or expenses to be charged to the 
worker. Including but not limited to: the costs of housing or 
accommodation, transportation to and from the worksite, meals, medical 
examinations, healthcare or safety equipment costs, and any other 
costs, expenses or deductions to be charged the worker.
       A statement describing the protections afforded the worker by 
U.S laws and regulations, including protections in the Trafficking 
Victims Protection Act of 2000 [Division A of the Public Law 106-486], 
as well as relevant information about the procedure for filing a 
complaint and the telephone numbers for the Department of Labor hotline 
and the National Human Trafficking Resource Center hotline number.
    3. Registration: A Department of Labor administered process for 
foreign labor contractors to obtain a certificate of registration. 
Employers must be required to use only foreign labor contractors who 
are properly registered under this system.
    4. Enforcement: A Department of Labor established administrative 
process for receiving, investigating, and adjudicating complaints 
against the compliance of either employers or foreign labor 
contractors. Criminal and civil rights of action for workers themselves 
are also key to preventing trafficking.
    5. Accountability: Workers must be protected from retaliation and 
employers must be held accountable for the actions of foreign labor 
contractors that they hire.

 Worker Rights as a Means to Prevent Trafficking for Labor Exploitation

    As described earlier, immigrant workers must be included fully in 
the protection of labor laws and have access to mechanisms to exercise 
their rights and report abuses to reduce their vulnerability to 
trafficking. Threats of retaliation, deportation, and visas being tied 
to a particular employer all increase the incidence of trafficking for 
labor exploitation. For this reason, ATEST also recommends a provision 
for the 2011 TVPRA that provide temporary immigration relief to workers 
who are whistleblowers of severe labor exploitation. There have been a 
number of human trafficking cases recently in the United States where 
workers who raised the alarm about severe abuse by employers have 
initially been threatened with deportation as a way to keep them quiet. 
These workers have had to remain in the United States in an 
undocumented status in order to stay in the country to pursue their 
cases against the abusive employers. After many years, these same 
workers have been certified as trafficking victims and receive ``T'' 
visas, but had to struggle for many years without status. Examples of 
this include the Global Horizons case and a group of Indian workers 
known in the media as the Signal Workers. ATEST recommends that a 
provision be included in the TVPRA 2011 to give trafficked workers like 
these access to temporary immigration relief in the United States while 
they pursue claims here, even if they are not initially identified as 
trafficking victims.

                      Trafficking in Supply Chains

    Another major trend in the global economy is the use of 
trafficking, forced labor, and slavery victims all along supply chains. 
It is difficult to quantify the exact number of trafficking victims who 
work in global supply chains but, as those supply chains reach down to 
smaller and smaller suppliers, the chances increase that the labor 
force includes trafficked people.
       When employers [buyers and multinational corporations [MNCs]] 
demand cheap or unrealistic pricing structures, they should not be 
surprised to find severe labor abuses, including slavery, in their 
supply chains.
       Similarly, when employers contract out or hire unregulated 
subcontracted suppliers, they should not be surprised to find that they 
have trafficking victims in their production lines
       When employers refuse to enforce or claim that it is too 
difficult to monitor adherence to core labor standards in their supply 
chains, they will find forced labor, debt bondage, and other severe 
forms of labor exploitation there.
    The Solidarity Center believes that the most effective way to 
eliminate forced labor, debt bondage and other forms of slavery in 
supply chains is by empowering workers to have a voice in their 
workplace, and supporting their right to organize and join unions. We 
believe that governments, MNCs, employers, labor recruiters and others 
must adhere to core labor standards and respect workers' human and 
labor rights in order to affect change in practices all along supply 
chains.
    The existence of MNC codes of conduct have failed to curtail 
trafficking practices in any number of sectors including garment/
textile, agriculture, and seafood processing. There is no easy solution 
to this problem, but we know that a key deterrent is the ability of 
unions and labor rights organizations to shine a light on these 
practices through on-the-ground investigations. We believe it is 
important that the Congress and Administration support such monitoring 
efforts, and the efforts of workers to monitor their own workplaces. 
Ultimately, workers and trade unions must be empowered to monitor 
supply chains because history shows that abuses in the workplace only 
end when workers have the power to ensure that their rights in both 
International Labor Organization [ILO] conventions and national laws 
are respected.
    Governments must also play a major role in eliminating slavery in 
supply chains. Examples abound of governments around the world 
reluctance to hold employers accountable for trafficking in their 
workplaces. Even when trafficking for labor exploitation is addressed, 
the labor recruiter is blamed and not the employer who perpetrates the 
exploitation.
    This lack of political will translates into ridiculously few cases 
of human trafficking for forced labor or other forms of severe labor 
exploitation from being prosecuted around the world. When cases are 
prosecuted, they often result in small fines and no jail time for the 
perpetrators--barely a deterrent for exploitative employers. The U.S. 
Department of Justice is playing an important leadership role globally, 
by prosecuting high-profile cases, such as the Global Horizons case, 
that may educate other governments of trafficking of temporary workers 
and within supply chains. The Office to Monitor and Combat Trafficking 
in Persons [G/TIP] at the State Department also plays an important role 
through its annual Trafficking in Persons Report in highlighting the 
lack of [but need for] prosecutions for forced labor and other forms of 
trafficking for labor exploitation in countries around the world.
    The U.S. government, however, must do more to ensure that U.S. 
corporations are held accountable for their practices abroad. We must 
increase government scrutiny of imports and exports to ensure goods 
made by slave labor are not allowed in the U.S. marketplace. To this 
end, the State Department needs to put more emphasis on site visits 
overseas to suspect industries. To do this, it must expand the number 
of labor officers and attachees in the field, something that the 
Congress has called for generally but which the Department has yet to 
act upon in any meaningful way.
    In addition, the Department of Homeland Security must review and 
rework the role of Immigration and Customs Enforcement [ICE] in 
overseas inspections. Currently, ICE must notify foreign governments of 
their intent to inspect workplaces that export products to the United 
States. Such notification results in the ``cleansing'' of these 
workplaces to remove any signs of trafficking or forced labor. U.S. law 
does not allow evidence collected by unions or non-governmental sources 
to be the basis for restricting the importation of products made by 
slave labor. This must be reformed.

                               Conclusion

    Secretary of State Hillary Clinton said, in the opening of the 2010 
TIP Report, ``Ending this global scourge is an important policy 
priority for the United States . . . and no one should claim immunity 
from its reach or from the responsibility to confront it.''
    We agree. It is not an oversimplification to say that if we end 
worker exploitation, we can end human trafficking. As the International 
Labor Organization [ILO] has noted, ``Where labor standards are 
rigorously adhered to, workers are well unionized and labor laws are 
monitored and enforced--for all workers, indigenous or migrant--the 
demand for trafficked people and services is likely to be low.''
    Thank you, again, for the opportunity to testify and for your help 
in combating global trafficking and supporting the rights of workers 
everywhere. I welcome your questions.

Prepared Statement of Julia Ormond, Founder and President, The Alliance 
                  To Stop Slavery and End Trafficking

    Mr. Chairman, distinguished Members of the Committee and staff, 
good morning.
    Initially, I engaged around the issue of slavery and human 
trafficking shocked and spurred into action by reports of sex-
trafficking. To me, nothing then seemed more heinous than the repeated 
rape and violence endured by its victims.
    At first, I met in California with survivors representing a wide 
variety of the faces of slavery. Other travels around the world took me 
to Russia, Ghana, Thailand, Cambodia, India, and Europe. These trips 
provided me with a creepy and shocking perspective of how slavery 
invades not merely the lives of its victims, but my own life as well--
how I am unwittingly connected to it; ultimately connected to its 
systematic violence. People often ask me ``where in the world is it 
worst?'' My answer is: ``in my own home''
    It is simply not possible to sit easily in Los Angeles and forget 
the enslaved children I have met. Children from whom I have walked 
away, and left to an uncertain fate.
    What keeps me up at night--what haunts me--are the victim's 
stories. I will never forget the story of the girl who crawled out of 
an eight floor window for fear of her life in sex slavery. But I can 
equally never forget the child enslaved in the fishing industry who 
jumped ship into the Thai sea to float on a barrel for two days and a 
night before being rescued because that was his safest option, or the 
child who was chained, whipped and scarred for life while maybe working 
on our carpets. Or the child soldier forced to burn his village, kill 
his mother and rape his sister for someone else's war. Or the stories 
of the artisanal miners of gold who begin a two-year life expectancies, 
just to provide me with a trinket. Or the enslaved garment worker who 
make my clothing. Or footage of Mayan agricultural slaves in Florida 
picking my tomatoes.
    Just as those forced into sex slavery, they all deserve our 
compassion. They all deserve our attention. And they all deserve our 
commitment to end all forms of slavery and human trafficking.
    In 2007 I founded the Alliance to Stop Slavery and End Trafficking, 
otherwise known as ASSET. ASSET is an advocacy organization, dedicated 
to combating slavery and trafficking by amplifying the voice of the 
victim, and supporting systemic solutions.
    I have come to define ``enslavement'' as:

         ``When one person completely controls another person, uses 
        violence or violent threat to maintain that control, exploits 
        them economically and pays them effectively nothing. 
        Trafficking is a process of enslaving someone.''

    Under the tenure of Ambassador CdeBaca, the 2010 Annual Report of 
the U.S. State Department's Office to Monitor and Combat Trafficking in 
Persons notes that more people are trafficked into forced labor than 
commercial sex. Yet ask any member of the public what proportion of 
this issue is sex-trafficking, and the usual response is about 80%. To 
the contrary, the International Labor Organization has recently stated 
that for every one person forced into the sex trade, nine people around 
the world are forced to work.
    And among labor trafficking victims, the practice is most prevalent 
in the agriculture and mining industries. The forced labor of these 
victims taints many of the products that we purchase and rely on every 
day, such as coffee, chocolate, clothing, micro-chips, electronics, 
even the brake pads in our cars. To quote the TIP Report, ``it is 
impossible to get dressed, drive to work, talk on the phone, or eat a 
meal without touching products tainted by forced labor.''
    The United Nations has documented the shift from trafficking in 
weapons and drugs, to trafficking in people. And now specifically, the 
trafficking of children. The U.N. Office on Drugs and Crime has cited 
that in Europe, the profits from human trafficking has overtaken the 
profits in the trafficking of drugs. Yet the United States government 
spends more in ONE DAY fighting the war on drugs, than it spends in an 
entire year fighting the trafficking of people.
    We all have a role to play in supporting solutions--and there are 
many solutions. Every single place I travelled, solutions await the 
resources to scale and meet a drastic need.
    In order to resource these solutions, however, it is vital to get 
the story straight, and media can play a crucial role. Sex will always 
sell, whether the story is good or bad. But we need the media to cover 
the issue fairly, proportionately. Media outlets must set aside 
deliberate resistance of losing advertising revenue, and instead 
articulate how businesses can use their influence over supply chains to 
recreate the map, to illuminate the worst areas of poverty in the 
world, where slavery and trafficking take hold.
    As advocates, we need to do a better job articulating to the public 
the enormous challenges that today's complex supply chains present to 
business. We need to articulate that the CEO is most often not the 
criminal. This is criminal activity tainting their supply chains, most 
often around raw materials, just as shoplifting is criminal activity 
occurring at the other end of the supply chain, at the point of 
purchase.
    Only by rediscovering the supply chain, and influencing each step 
of it by encouraging best practices, can we implement real solutions; 
can the NGO work with the CEO. A supply chain without a policy of best 
practices is like a computer without virus protection--you will most 
likely become infected with a virus or tainted by labor violations.
    We need companies to come to the table and collaborate in finding 
better solutions, to work with governments and the NGO community, who 
can offer victims safety and rehabilitation, and can assist vulnerable 
communities. We cannot accurately and efficiently access victims 
without the assistance of the companies that influence infected supply 
chains.
    I think one of the most crucial pieces that I have learnt is that 
this is a verification of process--whether you are growing, picking, 
selling tomatoes out of Florida, or implementing Fair Trade's exemplary 
standards in the developing worlds small farms--you will find slavery. 
The point is that the better your practices, the less you will find. 
And the better your practices, the better your response.
    ASSET's solution was to be primary sponsor of the California 
Transparency in Supply Chains Act of 2010, authored by Senator Darrell 
Steinberg and signed into law by Governor Schwarzenegger in September 
2010.
    This law came into effect in January 2011, and it requires 
retailers and manufacturers operating in California with over $100 
million in worldwide gross receipts to publicly disclose their efforts 
to eradicate slavery and human trafficking from their supply chains. 
The law will apply to just over 3,000 companies--around 4% of 
California's companies, who represent approximately 87% of economic 
activity in the state.
    This new law is one small step in a long journey forged by others 
that ASSET has joined. I hope if it is applied well, that it will 
represent a watershed in the sharing of knowledge, and will enable 
active consumer, investor and other stake-holder engagement, will 
encourage a pooling of resources and will get us closer to concrete, 
measurable results.
    The California Transparency in Supply Chains Act will for the first 
time enable consumers to chose to support businesses that are creating 
best practices, using their purchasing power to encourage them to bring 
their expertise and knowledge of supply chains into the equation. 
Investors can influence corporate governance and social responsibility 
practices, providing incentives to companies to elevate human rights 
and place them at the heart of their strategy.
    In one sweep it will educate companies unaware of a possible 
problem not just of their own potential vulnerability, but also the 
devastating impact of using company influence to drive profit up by 
forcing the prices of raw materials down, to a level where labor 
violations and criminal activity and suicide are the outcome for the 
raw material work-force. For today's enslaved.
    It will create an environment where those companies already doing 
the right thing, can more robustly and publically turn it into part of 
their brand identity. And for the next step in the process to occur; 
Congress should enact federal legislation that will empower consumers 
with information disclosing the presence of slavery and trafficking in 
the corporate supply chain.
    Thank you for listening, and I look forward to your questions.

                                 <all>


  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre></body></html>
